<html>
<title> - IS IT TIME TO LIFT THE BAN ON TRAVEL TO CUBA?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
             IS IT TIME TO LIFT THE BAN ON TRAVEL TO CUBA?

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2009

                               __________

                           Serial No. 111-63

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
53-673                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6d1c6d9f6d5c3c5c2ded3dac698d5d9db98">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
           Yleem Poblete, Republican Staff Director<greek-l>
            David S. Abramowitz, Chief Counsel deg.<greek-l>
           Kristin Wells, Deputy Chief Counsel deg.<greek-l>
     Alan Makovsky, Senior Professional Staff Member deg.<greek-l>
       David Fite, Senior Professional Staff Member deg.<greek-l>
   Pearl Alice Marsh, Senior Professional Staff Member deg.<greek-l>
     David Killion, Senior Professional Staff Member deg.<greek-l>
        James Ritchotte, Professional Staff Member deg.<greek-l>
         Michael Beard, Professional Staff Member deg.<greek-l>
              Amanda Sloat, Professional Staff Member deg.
        Peter Quilter, Senior Professional Staff Member<greek-l>
                Daniel Silverberg, Counsel deg.<greek-l>
     Brent Woolfork, Junior Professional Staff Member deg.<greek-l>
    Shanna Winters, Senior Policy Advisor and Counsel deg.<greek-l>
         Jasmeet Ahuja, Professional Staff Member deg.<greek-l>
      Laura Rush, Professional Staff Member/Security Officer deg.
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

General Barry R. McCaffrey, USA, Retired, President, BR McCaffrey 
  Associates, LLC................................................    17
Ambassador James Cason, Former Chief of Mission, U.S. Interests 
  Section, Havana, Cuba..........................................    21
Ms. Miriam Leiva, Independent Journalist and Founder, Ladies in 
  White..........................................................    33
Mr. Ignacio Sosa, Executive Board Member, Friends of Caritas 
  Cubana.........................................................    37
Ms. Berta Antunez, Sister of Former Political Prisoner Jorge Luis 
  Garcia Perez (``Antunez''), Pro-democracy Activist.............    40
Mr. Philip Peters, Vice President, Lexington Institute...........    49

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

General Barry R. McCaffrey, USA, Retired: Prepared statement.....    19
Ambassador James Cason: Prepared statement.......................    24
Ms. Miriam Leiva: Prepared statement.............................    35
Mr. Ignacio Sosa: Prepared statement.............................    39
Ms. Berta Antunez: Prepared statement............................    43
Mr. Philip Peters: Prepared statement............................    52
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Statement by Cuban blogger Yoani Sanchez..............    59

                                APPENDIX

Hearing notice...................................................    88
Hearing minutes..................................................    89
The Honorable Howard L. Berman: Prepared statement...............    92
The Honorable Mike Pence, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................    94
The Honorable Michael E. McMahon, a Representative in Congress 
  from the State of New York: Prepared statement.................    95
The Honorable John S. Tanner, a Representative in Congress from 
  the State of Tennessee: Prepared statement.....................    96
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................    99
The Honorable Albio Sires, a Representative in Congress from the 
  State of New Jersey: Prepared statement........................   102
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................   103
The Honorable Howard L. Berman: Material for the record..........   105
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida: Material for the record.............   126

 
             IS IT TIME TO LIFT THE BAN ON TRAVEL TO CUBA?

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order. In a 
moment, I will recognize myself and the ranking member for a 
somewhat loose 7 minutes each, the chair and ranking member of 
the Subcommittee on Western Hemisphere for 3 minutes each, and 
all other members of the committee, should they seek time, for 
a tight 1 minute, for the purpose of making opening statements. 
Without objection, all members may have 5 legislative days to 
submit opening statements or additional materials for the 
record. Also without objection, the chair may recess the 
committee at any time. And now, I will begin my opening 
statement.
    Americans have the right to travel to Iran, the world's 
leading state sponsor of terrorism, which seeks a nuclear 
weapons capability in violation of its obligations under the 
Nuclear Nonproliferation Treaty. We can go to North Korea, 
which threatens to destabilize East Asia with its nuclear 
weapons program. And even during the darkest days of the Cold 
War, our citizens could visit the Soviet Union. Yet, the vast 
majority of Americans are still prohibited by law from 
traveling to Cuba. It is the only country in the world where 
our people are not allowed to go.
    I am no fan of the Castro brothers. In my book, they are 
dictators and despots. The Cuban people are still denied the 
right to choose their own form of government. They are jailed 
arbitrarily. They are denied a free press, freedom of assembly, 
and freedom of expression. The recent beating of renowned Cuban 
blogger Yoani Sanchez as she walked to a peace march says it 
all.
    But let's face it. By any objective measure, the nearly 50-
year-old travel ban simply hasn't worked. This fact is clearly 
understood by the American people. Recent polls indicate that 
64 percent of Americans, and a full 67 percent of Cuban-
Americans, support allowing all American citizens to travel to 
Cuba. It is clearly time for a change.
    This hearing is not about ending the entire Cuban embargo. 
When President Obama abolished travel restrictions on Cuban-
Americans earlier this year, he made it clear that the larger 
issue of the embargo was a debate for another day. Unlike the 
travel ban, the economic embargo does not implicate the 
fundamental human rights of U.S. citizens. Today, we will focus 
on whether we should scrap the restrictions on Americans 
traveling to Cuba.
    The travel ban has prevented contact between Cubans and 
ordinary Americans who serve as ambassadors for the democratic 
values we hold dear. Such contact would help break Havana's 
chokehold on information about the outside world. And it would 
contribute to improving the image of the United States, 
particularly in Latin America where the United States embargo 
on Cuba remains a centerpiece of anti-Washington grievances.
    Proponents of the travel ban argue that we should not make 
any change in the law without a reciprocal gesture from the 
Cuban regime. I believe it is a huge mistake to treat the 
travel issue in this manner. Letting U.S. citizens travel to 
Cuba is not a gift to the Castros--it is in our national 
interest. Waiting for a concession from Havana before we do 
something on behalf of our own citizens perversely puts the 
Cuban Government in charge of that decision.
    I understand the concern that allowing Americans to travel 
to Cuba would put money in the hands of the Castros. But the 
reality is that a significant portion of these funds would also 
aid the underground economy and the small self-employed sector, 
strengthening an important foundation of independence from 
Cuba's authoritarian regime. At the end of the day, the 
importance of depriving the Castro regime of some additional 
financial resources is far outweighed by our interest in 
accelerating the spread of democratic ideas and supporting the 
development of a healthy civil society in Cuba.
    For too long, our policy decisions about Cuba, including 
the travel ban, have centered on hurting the Castro regime 
rather than helping the Cuban people. But this has led to the 
worst possible outcome: In an effort to make the Castros feel 
the sting, we have made the Cuban people cry. It is time to 
make the well-being of the Cuban people the driving force 
behind our policy toward the island. Lifting the travel ban 
will benefit both U.S. and Cuban citizens. We need to let 
Americans be beacons of hope; they will bring freedom with 
them.
    Let thousands of U.S. visitors chip away at the Castro 
information monopoly with thousands of small cuts. Let the 
residents of 19 U.S. cities actually travel to their sister 
cities in Cuba. Let Americans and Cubans openly discuss human 
rights and market-based economics and Hollywood movies on 
streets, beaches and in cafes throughout Cuba--and take the 
U.S. Government out of the business of deciding what should be 
discussed and which Americans should do the talking.
    The freedom to travel is an important thread running 
throughout American history--from the settlement of the West, 
to the road trips inspired by author Jack Kerouac, to the 
exploration of outer space. The Cuba travel ban is squarely at 
odds with this uniquely American value, and constitutes a 
disturbing infringement on the right of our citizens to freedom 
of speech, association, and to travel.
    Except under the most extreme circumstances, the government 
has no business telling us where we should go or with whom we 
should talk. It is beyond absurd that the Treasury Department--
through a humiliating and Kafkaesque licensing process--is in 
the position of deciding which American church groups can and 
cannot visit religious leaders on the island, and which of our 
artists and musicians are allowed to collaborate freely with 
their Cuban counterparts. This is Big Brother government at its 
worst.
    Last week we celebrated the 20th anniversary of the fall of 
the Berlin Wall. We relived the moments when East Germans and 
West Germans, after years of separation, came together as one. 
There is also a wall in the Cuban context--invisible yet very 
real--and to the extent that our policy has erected this 
barrier, we must begin to tear it down. I want to experience, 
as we all do, the joyful day when Cubans on the island and 
Cuban-Americans are also reunited.
    It is time to trust our own people. It is time to restore 
the right of Americans to travel to Cuba.
    And with us today to discuss this issue is a distinguished 
panel of witnesses, whom I will introduce shortly, but before I 
do, let me turn to the ranking member, the gentlelady from 
Florida, Ms. Ros-Lehtinen, who may have a different perspective 
on this issue than the one you have just heard, for any opening 
comments that she might want to make.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman, as always, for 
your bipartisan spirit, and thank you to all the audience 
members for being here today. On January 21 of this year, I 
heard a statement that appeared to telegraph to the world that 
the U.S. would hold brutal regimes accountable for their 
actions, that our foreign policy toward tyrants would be based 
on an overarching moral, political, and strategic U.S. 
objective of promoting freedom and democracy.
    On that historic day, President Obama said, and I quote, 
``To those who cling to power through corruption and deceit and 
the silencing of dissent, know that you are on the wrong side 
of history.'' He added that the U.S. would extent a hand if, he 
emphasized, you are willing to unclench your fist, and I 
commend President Obama for restating his position earlier this 
year and restating his support for the United States embargo on 
the Cuban dictatorship, calling on the regime to free all 
political prisoners.
    The President said, and I quote, ``The Cuban people are not 
free, and that is our loadstar when it comes to our policy in 
Cuba.'' Proponents of unfettered travel to Cuba seek to reward 
the Cuban regime with tourism cash flows as the dictatorship 
tightens its stranglehold on the Cuban people. Let us have an 
honest debate on the issue of travel to Cuba, one based on 
facts. There is no ban on travel to Cuba. Do not mislead the 
American people. A ban denotes a prohibition on any travel to 
the island, but there are 18 different ways in which Americans 
can legally travel to Cuba, and they do; eight categories under 
general licenses and ten categories under specific licenses.
    In addition to family, journalists and official U.S. 
Government travel, one can travel for other reasons, ranging 
from verifiable educational, religious and humanitarian 
activities to professional research and meetings, athletic 
competitions, artistic performances, activities related to 
authorized U.S. exports to Cuba, of which there are many. Many 
Members of Congress travel to Cuba every year, some at 
taxpayers' expense, stay at the best hotels, some of which have 
been built on confiscated U.S. property, and return with 
nothing but glowing reviews about Fidel Castro and his new 
faceman and current dictator, his brother Raul.
    In April, for example, one of our House colleagues traveled 
to Cuba and said this of Fidel Castro, and I quote--I want to 
sound breathless as I say this: ``It was almost like listening 
to an old friend.'' Even more regrettable, many of our 
colleagues have sought to present the apartheid system of 
health care in Cuba as a model for the United States to 
emulate. A member of this committee during an August 28 town 
meeting praised the Cuban regime's healthcare system and said 
of Fidel Castro, breathless again, ``one of the brightest 
leaders I have ever met.''
    This is the same Cuban healthcare system which provides all 
the best treatment to foreigners and to the regime elite while 
denying it to dissidents and subjecting political prisoners to 
electroshock treatment as punishment for their political 
beliefs. Some of the categories of U.S. travel to Cuba have 
been in place for decades. In fact, during the Carter 
administration, there were no restrictions on travel to Cuba.
    Did that make the Cuban people any closer to freedom and 
democracy? I must have missed that. I believe the response was 
the Mariel boatlift. Despite this licensed targeted American 
travel; despite the onslaught of European visitors; visitors 
from Mexico; especially, when it come to Europe, from Spain; 
Canada, Canada sent so many visitors to Cuba; what has the 
Cuban regime done? Has it unclenched its fists? Did I miss 
that?
    In fact, just 2 weeks ago, as the chairman pointed out, 
independent blogger Yoani Sanchez and fellow blogger Orlando 
Luis Pardo were detained and beaten by Cuban agents to prevent 
them from participating in the march against violence. It is so 
ironic and so indicative of the Castro regime, beating them up 
as they go to a march against violence. A week ago, Jose 
Antonio Vasquez was fired as a chef at a restaurant because of 
his opposition to the Cuban dictatorship and for wearing a 
cambio bracelet, ``change,'' a bracelet like the one I am 
holding up. That is a crime in Cuba.
    What opponents of the current travel regulations want is 
unrestricted tourist travel to Cuba. One of our colleagues in 
this committee has even joked, and I quote, ``Oh, let the 
Castro brothers deal with spring break once or twice and we 
will see how much control they still have.'' Ha, ha, ha. We 
have seen the images in the news about spring break. How could 
anyone credibly argue that lounging on the beaches of Varadero 
or partying in the nightclubs until the wee hours of the night 
will bring freedom and democracy to the Cuban people? It is not 
funny.
    The majority of Europeans and tourists from around the 
world have been going to Cuba for rum, for music, for sex, for 
cigars, for sun, for years. Have they brought about democratic 
reform and change? By contrast, Ambassador Cason, one of our 
witnesses today, highlighted in an editorial earlier this year 
the tourism restriction or travel ban against South Africa's 
apartheid's government did play a key role in forcing a change 
by convincing the government that its practices were 
unacceptable and would not be condoned.
    Cuban travel regulations and U.S. sanctions on the Castro 
regime were developed to address U.S. security interests and 
foreign policy priorities and are based on solid legal ground. 
First, the tourism sector in Cuba is built on confiscated U.S. 
property. Many of the hotels and restaurants, which are closed 
to the average Cuban, are part of the uncompensated property 
stolen from Americans. Why would we seek to propagate such 
violations of U.S. property rights by promoting tourism to the 
island?
    Second, the Cuban dictatorship's economic vulnerability 
lies in the tourism sector, as it constitutes the single 
biggest source of income for the regime. In the same manner 
that the Iran-Libya Sanctions Act was enacted in 1996 to target 
Iran's economic vulnerability, its energy sector, and in the 
same manner that this committee just 3 weeks ago adopted the 
Iran Refined Petroleum Sanctions Act to impose sanctions 
targeted at Iran's newest economic Achilles' heel, so it is 
that U.S. travel regulations are targeted at the tourism 
sector. Tourism is to Cuba what energy investment and refined 
petroleum products are to Iran.
    Third, it is in this Nation, our Nation's security interest 
to curtail travel to the island. As former Defense Intelligence 
Agency counterspies have emphasized during congressional 
briefings and as analysts report, ``The Cuban military is well-
integrated throughout the tourism industry. This presents an 
excellent platform from which to conduct a wide variety of 
illicit activities due to the large volume of foreign visitors 
who pass in and out of these resorts, providing Cuba with hard 
currency.''
    Among other regime entities involved in the tourism sector, 
Grupo de Administracion Empresarial S.A., Enterprise Management 
Group, or GAESA, which is a holding company for the Cuban 
Defense Ministry, this group holds a wide array of companies, 
including Sasa, which controls the island's gas station 
network, and Gaviota, which controls and operates more than 30 
hotels and resorts. Tourism profits have enabled GAESA to 
control the military counterintelligence department and its 
support companies, such as Antex, which has served as a channel 
for introducing Cuban intelligence operatives into foreign 
countries.
    It has also been reported that Cuban intelligence sees 
tourist travel to the island as an important source of 
potential assets, that is as a means of recruiting foreigners 
to spy for the regime. So, given the success of the Cuban 
intelligence in recruiting U.S. academics, a senior INS 
official, a senior Department of Defense official, State 
Department intelligence and research official Walter Kendall 
Meyers, and the most senior Cuba analyst at the Defense 
Intelligence Agency, Ana Belen Montes, to betray the United 
States and spy for the regime, why would we want to facilitate 
such potential espionage activities by allowing unfettered 
travel to the island?
    And just a few more points, Mr. Chairman. Thank you for the 
time. Fourth, the Supreme Court has said that travel to Cuba 
can be restricted in support of U.S. foreign policy. The court 
held, and I quote, ``There is an adequate basis under the Due 
Process Clause of the 5th Amendment to sustain the President's 
decision to curtail the flow of hard currency to Cuba by 
restricting travel.'' Fifth, the travel regulations also help 
contribute to the safety of Americans and enable us to minimize 
the risk to U.S. travelers to Cuba.
    Some have sought to justify the removal of all travel 
restrictions by comparing Cuba to Iran. The chairman started 
with that very comparison. I welcome such a parallel. The case 
of Iran illustrates the need for travel regulations by shining 
a light on the safety and security issues associated with 
unregulated travel to countries under the control of rogue 
regimes. Three American backpackers who got lost while hiking 
in a mountainous region along the unmarked Iraqi-Iran border 
were detained by Iranian border security agents in July. They 
are now being charged with espionage.
    The case of the Iranian-American journalist who, in April 
of this year, was sentenced to 8 years in prison after Iran 
accused her of spying for the United States. She spent 4 months 
in prison. She was released in May. And the Director of the 
Middle East Program of the Woodrow Wilson International Center 
for Scholars was detained in Iran in 2007, placed in solitary 
confinement for more than 110 days. Iran and Cuba are not 
trustworthy regimes.
    Already, the Department of State warns, and I quote, ``In 
several instances, the Cuban regime has seized the U.S. 
passports of dual nationals, has denied these individuals 
permission to return to the United States, Cuban authorities 
consistently fail to notify the U.S. Interests Section of the 
arrests of Cuban-American dual nationals, and deny U.S. 
consular officers access to them. They also withhold 
information concerning their welfare and treatment.'' Why 
promote tourism travel to Cuba?
    Why not choose to go to the Bahamas, Jamaica, or the 
Dominican Republic, given the implementation of our U.S.-CAFTA-
DR trade agreement? Haiti needs our help. Why not flock to 
Haiti and help rebuild this island nation? Why choose to 
vacation off the backs of the forced slave labor of the 
oppressed Cuban people who are denied access to the very 
tourist hotels you want to flock to? Promoting tourist travel 
to Cuba does not advance the interests of the United States or 
our constituents.
    If you desire to come to a warm tropical climate, come to 
my district. Come to Miami. Come to Key West. Come to any part 
of Florida's Gulf or Atlantic Coast. Go to the Jersey Shore. 
Visit California, visit Arizona. Let us boost our own U.S. 
economy. Let us boost our state's economy. Don't fill the 
coffers of the Castro regime. Muchas gracias Senor Chairman. 
Thank you.
    [Applause.]
    Chairman Berman. The time of the gentlelady has expired, 
and the chairman of the Western Hemisphere Subcommittee, Mr. 
Engel, is recognized for 3 minutes.
    Mr. Engel. Well, thank you, Mr. Chairman. As the chairman 
of the Western Hemisphere Subcommittee, I very much appreciate 
your calling today's hearing to discuss the issue of Cuba and 
the travel ban. It is also important that we take a broad look 
at our entire Cuba policy as well, as well as the internal 
dynamics in Cuba, as we review the travel ban.
    I support President Obama's steps to move the ball forward 
on U.S. policy toward Cuba, but I also believe that it takes 
two to tango. The President removed restrictions on family 
travel and remittances to Cuba and extended communication links 
to the island. These steps sent important signals of the 
willingness of the United States to improve ties with Cuba, but 
in response, unfortunately, I have seen few if any reciprocal 
steps from the Castro regime.
    Unfortunately, Cuba remains one of the most repressive 
countries in the Western Hemisphere. Like many of my 
colleagues, I would like to see us turn the page on our 
approach to Cuba, but that time has not yet come. I therefore 
also stand with President Obama in continuing to support the 
embargo on Cuba.
    I was at the Summit of the Americas with President Obama 
and led the congressional delegation to the Organization of 
American States General Assembly meeting in Honduras. I am 
pleased to report that the administration's moves toward Cuba 
have received a positive reception throughout the hemisphere.
    At the General Assembly, the OAS lifted Cuba's suspension 
from the organization. This was a delicate move, carefully and 
ably negotiated by Secretary of State Hillary Clinton. It sent 
a message that the United States was willing to see Cuba rejoin 
the OAS if it embraces the Inter-American Democratic Charter. 
Of course, Cuba has not adopted the Charter's principles. And 
let me be clear, the resolution did not readmit Cuba into the 
OAS; in fact, the Cubans themselves say they do not want to 
rejoin the OAS.
    Thus, the ball is now in Cuba's court to abide by the 
principles of human rights and democracy embodied in the Inter-
American Democratic Charter. As we move forward, we should not 
forget that the United States is already a major source of 
humanitarian assistance to the Cuban people and the largest 
provider of food to Cuba. In agricultural products alone, the 
United States sold over $700 million of goods to Cuba, making 
the United States Cuba's fifth largest trading partner in 2008.
    I support President Obama's changes on Cuba policy, since 
it recognizes that further liberalization also requires 
positive steps by the Cuban Government, especially in the areas 
of democracy and human rights. Cuba must take steps to free 
hundreds of political prisoners and demonstrate respect for 
freedom of speech and the press. We need to see change in Cuba 
to turn the page on history and move forward in our bilateral 
relationship.
    Perhaps at that time we could change our policy on the 
travel ban. In other words, using the reset button applies to 
both sides of the United States-Cuba relationship. We have 
already moved forward. More steps by the Castro regime to make 
tangible progress on democracy and human rights would provide 
even greater opportunities to move beyond the mutual 
recriminations found between our two countries. Mr. Chairman, 
thank you again for calling today's hearing, and I look forward 
to hearing from our distinguished witnesses.
    Chairman Berman. Thank you very much. The time of the 
gentleman has expired.
    The ranking member of the Western Hemisphere Subcommittee, 
the gentleman from Florida, Mr. Mack.
    Mr. Mack. Thank you, Mr. Chairman, and I also want to thank 
the ranking member and associate myself with all of her 
comments. Mr. Chairman, Cuba is a totalitarian regime that has 
oppressed and punished the Cuban people for more than 50 years. 
We all support the right, at least I hope we all support the 
right, of the Cuban people to live in a free and democratic 
society, but we differ strongly and passionately on how to help 
the Cuban people achieve freedom.
    At today's hearing, we explore how to give a bailout to the 
Castros. Instead of holding a hearing on human rights 
conditions in Cuba, we have decided to hold a hearing on how 
fast Americans can make a reservation on Orbitz so they can 
spend the night at a Cuban hotel where Cubans aren't even 
allowed in, or whether Americans can drink mojitos a few feet 
away from political prisoners. Mr. Chairman, we must remain 
steadfast in our opposition to the brutal Castro regime that 
murders, tortures, rapes and systematically eliminates any 
opposition to its iron-fisted rule.
    Canadians and Europeans have been traveling to Cuba and 
supporting the Castro regime for many years. Some have said 
that by opening Cuba to travel, it would promote political and 
economic change from the Castros' oppression. Nothing could be 
further from the truth. Let us look at some numbers: 2.1 
million, that is how many tourists visited Cuba in 2007. Over 2 
billion, that is the number of dollars generated by tourism in 
Cuba on a yearly basis.
    One hundred and two; that is how many attacks against Cuban 
journalists have happened in the past year. Three; that is the 
number of Cuban agents who threw a blogger headfirst into an 
unmarked black car and beat her, beat her, for speaking about 
freedom. This isn't a few years ago. This is a few weeks ago. 
Over 300, that is the number of political prisoners in Cuba. 
Zero. Zero; that is the amount of change we have seen from the 
Castros, Mr. Chairman.
    Some of my colleagues and some of our witnesses will say 
that 2 million tourists and $2 billion a year in tourism is not 
enough to bring change to Cuba, and that instead we must 
support and fund the inhumane activities of the Castro 
brothers. Let us call it what it is. This is a Castro bailout, 
Mr. Chairman. A bailout for beating, a bailout for oppression, 
a bailout for rape, a bailout for torture, a bailout for 
corruption, a bailout for tyranny.
    Mr. Chairman, going sightseeing to view political prisoners 
will not bring democracy to Cuba. America has always stood for 
freedom, and in a bipartisan manner, we have to endeavor to 
spread the light of liberty on the repressive Castro regime. 
Now is not the time to change policy and start appeasing and 
funding the Castro plan. The flame of liberty is a powerful 
one, Mr. Chairman. Let us work together to support the right of 
the Cuban people to live in a free and democratic society, and 
Mr. Chairman----
    Chairman Berman. The time of the gentleman has----
    Mr. Mack. Mr. Chairman, you were right. The Cuban people 
are crying, Mr. Chairman. They are crying because----
    Chairman Berman. The time of the gentleman is expired----
    Mr. Mack. This hearing sends a message that we do not 
support the fight for freedom, and that is wrong.
    [Applause.]
    Chairman Berman. Mr. Mack, the time is expired, and we can 
get into cheering all the different views on the different 
sides. I think the hearing will be much better if we can feel 
the sympathy with a particular position but not express it in a 
voluble way. Who next in seniority on the majority's side 
wishes to take 1 minute? The gentleman from Massachusetts, Mr. 
Delahunt. You are recognized for 1 minute.
    Mr. Delahunt. Well, thank you, Mr. Chairman, and of course 
at some level, this hearing is about the United States and Cuba 
and the bilateral relationship, but let me suggest at its very 
core, it is really about American democracy, because the travel 
ban is not a sanction on Cuba. It has accomplished nothing in 
50 years. It is a sanction on American citizens by our own 
Government, a sanction on our freedoms, a sanction on our 
liberties, and to suggest that ending the travel ban should be 
conditioned on the actions of the Cuban Government would mean 
that the Communist Cuban regime would decide when Americans can 
exercise their liberties, their freedoms, their right to 
travel.
    How absurd. How outrageous. It is time to trust the 
American people.
    Chairman Berman. The time of the gentleman has expired. 
Next on the--the gentleman from New Jersey, Mr. Smith, is 
recognized for 1 minute.
    Mr. Smith. Thank you very much, Mr. Chairman. Mr. Chairman, 
in 2001, I offered an amendment to the Treasury-Postal 
Appropriations Bill to facilitate lifting the travel ban, but 
if and only if certain fundamental human rights conditions were 
met: First, release all political prisoners; and second, return 
to the United States those murderers and felons who had escaped 
to Cuba, including and especially Joanne Chesimard, a woman who 
was convicted and sentenced for the brutal execution-style 
murder of a New Jersey State Trooper named Werner Forester.
    Chesimard today has a life of luxury and privilege, an 
affront to every law-abiding citizen, not just in the United 
States, but also in Cuba, and the Forester family continues to 
live with a great tragedy. Today, hundreds of men and women 
languish in Castro's gulags. Dr. Oscar Biscet and others are 
systematically abused, tortured. The House got it right in 
2001, sadly the amendment was dropped by the Senate. Lift the 
travel ban if and only if these conditions are met.
    Chairman Berman. The time of the gentleman has expired. The 
gentlelady from California, Ms. Watson, is recognized for 1 
minute.
    Ms. Watson. Thank you, Mr. Chairman, for holding this 
timely hearing on the travel ban to Cuba. For many developing 
nations, tourism has mutual benefits, providing a means of 
attracting interest in their culture and in American dollars. I 
do not believe that tourism is the silver bullet that will 
reduce poverty, encourage democracy and restore social 
equality. However, there is value to opening the doors of 
tourism to Cuba.
    Tourism is a dialogue, even if only indirectly, with the 
Cuban people. It signals our openness to discourse, and I 
believe this will give hope to Cubans wishing to return to 
their homeland, so I look forward to hearing the testimonies of 
our panelists. I want to thank you for the hearing, Mr. 
Chairman.
    Chairman Berman. The time of the gentlelady has expired. 
The gentleman from Indiana, Mr. Burton, is recognized for 1 
minute.
    Mr. Burton. Well, I appreciate you having this hearing, Mr. 
Chairman. I wish everybody that is concerned about this would 
talk to Armando Valladeras, who spent years and years in a 
Communist gulag down there in Cuba, and listen to what he has 
to say. Every dollar, every single dollar that goes to Cuba, 
helps Castro. They exchange that money and they pay those 
people down there in the local currency, and they get a 
pittance for the work that they do.
    There are 10 million people in Communist gulags in 
Communist China. We do business with them, but they haven't 
changed. They haven't changed in Vietnam either. This is 90 
miles from our coast, 90 miles from our coast and they are 
working with Chavez and South America. They are working with 
the Communist movement every place they can, and they are still 
a threat to the United States. We shouldn't send any money down 
there, not a dime, except maybe for humanitarian purposes, 
until this regime is removed.
    They need democracy in Cuba. Viva Cuba----
    [Applause.]
    Chairman Berman. The time of the gentleman has expired. 
Please, please, let us--we will hear your applause, just don't 
make them. The gentleman from New Jersey, Mr. Sires, is 
recognized for 1 minute.
    Mr. Sires. Thank you, Mr. Chairman. Lifting travel 
restrictions could send countless of American tourists to Cuba, 
and when the tourists visit the island, that money does not 
help the Cuban people. It does not trickle down to the Cuban 
people. It goes into the pockets of an oppressive government. 
By lifting travel restrictions, we are unequivocally funding an 
oppressive regime. This oppression of the Cuban regime is 
systemized and constant.
    A couple of weeks ago, agents rounded up and beat blogger 
Yoani Sanchez and others who were on their way to a peaceful 
demonstration to promote human rights and denounce violence. 
For this, they were beaten. Just yesterday, Human Rights Watch 
released a 123-page report detailing atrocities conducted by 
the Cuban regime. The report documents unwarranted threats, 
violent attacks, arrests and imprisonment.
    This is the reality in Cuba, and it is this oppressive 
activity that increased travel would help fund. Is that it?
    Chairman Berman. That is it, for now. The gentleman from 
California, Mr. Royce, do you seek recognition?
    Mr. Royce. I do, thank you, Mr. Chairman.
    Chairman Berman. The gentleman is recognized for 1 minute.
    Mr. Royce. Well, Mr. Chairman, promoting this type of 
travel to Cuba might be a good strategy if it would promote 
democracy or human rights or our security. It won't. Or if 
tourist dollars spent there empowered the average Cuban, or 
helped build civil society, or escaped the regime's grasp. They 
don't. Or if American tourists would be free to interact with 
all Cubans, holding open conversations. They won't. I do wonder 
who frolics on the beach knowing that freedom-seeking Cubans 
are brutalized nearby, or as one witness testifies, watches 
macabre, real-life puppet shows of repressed Cubans hailing the 
dictator.
    That is the tourist industry. Some don't recognize that we 
have determined, dangerous enemies. I do. Empowering the 
security apparatus of Cuba, a terrorist state, is a very wrong 
way to go. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. 
Does the gentleman from Virginia seek recognition? The 
gentleman is recognized for 1 minute, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. It is not like we 
haven't done anything. Earlier this year in the Omnibus 
Appropriations Act, we actually did relax certain restrictions 
on Cuban travel, but now, I believe, having extended that olive 
branch, it is up to the Castro regime to respond. Further 
relaxing the current travel and trade restrictions without 
reciprocal actions in Cuba only undermines our efforts to 
improve human rights and might embolden a Castro regime in its 
twilight.
    While I sympathize with the plight of those with family in 
Cuba, I believe we cannot afford simply to give away what 
leverage we still have over the Castro regime if we are 
seriously intending to realize improvements for the Cuban 
people and their families here in America, and I yield back.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Arizona, Mr. Flake, is recognized for 1 minute.
    Mr. Flake. I thank the chairman for holding this hearing. 
You know, when I was elected to this office, I thought I was 
being elected to be a Member of Congress, not a travel agent, 
but from some of the discussion already today, we are being 
told that you ought to travel to Bermuda or to Haiti, but don't 
travel to Cuba. I would suggest that is not our role here. I 
mean, if we want to be a travel agent, let us go be a travel 
agent, but otherwise, some people think, myself included, that 
we will actually promote democracy by allowing Americans to 
travel to Cuba.
    Some people are on the other side and don't believe that. 
Fine. After 50 years, I think the arguments are probably on my 
side, but let us call it a draw. If it is a draw, shouldn't the 
default be freedom? This is not a sanction on Cuba. This is a 
sanction on Americans. We can leave the discussion, and we 
will, about the embargo for another day. This is a discussion 
about, will we allow our constituents the freedom to make their 
own choice on where to travel, and not tell them, we want you 
to travel here and not there? I yield back.
    Chairman Berman. The time of the gentleman is expired. The 
gentleman from American Samoa, Mr. Faleomavaega, is recognized 
for 1 minute.
    Mr. Faleomavaega. Thank you, Mr. Chairman, for calling this 
hearing. I just want to say for the record, my utmost respect 
for those of my colleagues whose lives and families were 
directly affected by the policies of the Castro regime. I have 
heard the stories of how they left their homes and their 
belongings for fear of their lives, and how they have had to 
escape Cuba, and come to America. Mr. Chairman, this is a very 
emotional issue, one that I can say is not a Democratic or a 
Republican issue.
    It is an issue about America. And whether or not the 
restrictions on us, the American people, the right to travel as 
we please, I think, is really the question. Whether it will 
bring greater democracy to Cuba, I think I share the gentleman 
from Arizona's sentiments. The idea here is, are we restricting 
the right of all Americans, wherever they may want to go as 
fellow Americans, whether it be in Cuba or any other country of 
the world?
    We go to China. Certainly not all the freedoms are given in 
China. I have a lot more to say, but I thank you. I yield back.
    Chairman Berman. The time of the gentleman has expired, and 
the gentleman from South Carolina, Mr. Wilson, is recognized 
for 1 minute.
    Mr. Wilson. Thank you, Mr. Chairman. I agree with Ranking 
Member Ileana Ros-Lehtinen. I grew up in Charleston, South 
Carolina, during the heights of the Cold War. I remember well 
the threat posed by a Communist regime 90 miles from Florida. I 
firmly believe that lifting the travel ban only serves to 
enrich the corrupt Communist elite. I am hopeful that Castro's 
rule over Cuba will be coming to an end soon.
    When this happens, this will allow the people of Cuba and 
the United States to finally engage in a full, free, democratic 
process. Why reward someone who for decades has threatened the 
American people with harm? Some may say that opening up Cuba 
will allow the people there to achieve better lives. For 
decades, European countries have permitted millions of tourists 
to travel to Cuba, but the current oppressive regime continues 
to govern by force, instilling fear in its people.
    It should be noted that the private humanitarian missions 
are important and acceptable, are already permitted and legal 
under U.S. law. Change in U.S. policy should be based on change 
in Cuba.
    Chairman Berman. The time of the gentleman has expired. 
Does the gentleman from New York seek recognition? Mr. McMahon? 
The gentleman is recognized for 1 minute.
    Mr. McMahon. Thank you, Mr. Chairman. I just want to quote 
from the State Department's 2009 country description by the 
Bureau of Consular Affairs of Cuba:

          ``Cuba is a totalitarian police state which relies on 
        repressive methods to maintain control. These methods 
        include intense physical and electronic surveillance of 
        both Cuban citizens and foreign visitors. Americans 
        visiting Cuba should be aware that any encounter with a 
        Cuban citizen should be subject to surreptitious 
        scrutiny by the General Directorate for State Security 
        of Cuba.
          ``Also, any interactions with average Cubans, 
        regardless of how well-intentioned, can subject that 
        Cuban to harassment and/or detention and other forms of 
        repressive actions by state security elements. The 
        Government of Cuba bases much of its legitimacy on 
        being strongly opposed to the U.S. Government. 
        Nevertheless, its need to earn hard currency through 
        the tourist industry prompts it to encourage tourism 
        from any source.''

    Again, Mr. Chairman, I didn't make that up. That is from 
the State Department's 2009 country description, and I submit 
that for the record for thought of those who would lift the 
travel ban.
    Chairman Berman. It will be included. The time of the 
gentleman has expired. The gentleman from Florida--has already 
had his time. The gentleman from Texas, Mr. Poe, is recognized 
for 1 minute.
    Mr. Poe. Mr. Chairman, instead of Russian missiles, Cuba 
harbors convicted terrorists, spies, and imprisons its own 
people and calls them political prisoners, and the profits from 
this so-called tourism that we are talking about, which 
included $2.7 billion last year, go not to the people but 
directly to the Cuban intelligence and its military. Now, why 
would we in our right mind ever want to help subsidize the 
enemies of the United States?
    And this is, we are talking about sending Americans to 
hotels that, just like in the old Soviet Union days when I was 
in Moscow in the 1980s, the Russian citizens couldn't go in 
those hotels. They are all for tourists, and the same is true 
in Cuba, but it seems unconscionable to me that we would 
encourage our citizens to vacation while Cubans are persecuted 
by their own government by the Castro brothers, and I think the 
travel ban should remain in effect. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. The 
gentlelady from California, Ms. Woolsey, is recognized for 1 
minute.
    Mr. Woolsey. Thank you, Mr. Chairman. I just briefly want 
to say that as we are listening to our witnesses and to each 
other, we have to know how many other countries that we, as 
Americans, travel to that aren't democracies, that don't have 
human and religious rights that we would agree with, and ask 
our question, why should we treat Cuba any differently? I yield 
back.
    Chairman Berman. The time of the gentlelady has expired. 
The gentleman from Florida, do you seek recognition?
    Mr. Bilirakis. Yes, thank you.
    Chairman Berman. The gentleman, Mr. Bilirakis, is 
recognized for 1 minute.
    Mr. Bilirakis. Thank you, sir. The idea that increased 
travel would have a real impact on openness in Cuba is 
misguided. Castro is the problem, not American policies. We 
should not be in the business of perpetuating the Castro 
regime's propaganda apparatus that blames the U.S. for the 
island's suffering. Lifting travel restrictions would directly 
provide tourist dollars to the Marxist regime in order to fund 
its tools of oppression.
    There is no free market in Cuba, just a giant money 
laundering machine for a tyrant bent on maintaining Soviet era 
policies that otherwise met their demise with the fall of the 
Berlin Wall 20 years ago. We must maintain travel restrictions 
to prevent the regime from using tourist dollars to further 
oppress the Cuban people. Thank you, Mr. Chairman. I yield back 
the balance of my time.
    Chairman Berman. The time of the gentleman has expired. The 
gentlelady from California, Ms. Lee, is recognized for 1 
minute.
    Ms. Lee. Thank you, Mr. Chairman. Cuba is the only nation 
in the world where Americans are forbidden to travel by their 
own government, the only one. Our Government will not stop 
Americans from traveling to Afghanistan, North Korea, Sudan or 
Burma. Americans are free to travel to every nation except for 
a small island 90 miles off the coast of Florida, and our 
President just completed a very successful visit to a Communist 
country, China.
    By any objective standard, our current policy toward Cuba 
just hasn't worked. It was clear to me when I first traveled to 
Cuba in the mid-70s as a congressional staffer, and it is even 
clearer to me now, over three decades later. Earlier this year, 
I led a congressional delegation to Cuba. We believe there are 
new opportunities to rethink U.S. policy with our nearest 
Caribbean neighbor. Americans should not be denied the right to 
travel to Cuba.
    Americans, mind you, have become isolated. We should be 
free to be part of the global community. It is our democratic 
right to travel to Cuba. We don't want to deny our citizens 
their free democratic rights based on what regime or what 
government is in place, because we don't deny Americans the 
right to travel anywhere else in the world. Thank you, Mr. 
Chairman.
    Chairman Berman. The time of the gentlelady has expired. 
The gentlelady from Nevada, Ms. Berkley, is recognized for 1 
minute.
    Ms. Berkley. Thank you, Mr. Chairman. I would like to 
thank, and applaud, and incorporate by reference the eloquent 
statements of the ranking member, Ileana Ros-Lehtinen. I 
believe her comments were spot on. I am opposed to lifting the 
travel restrictions to Cuba unless and until Castro's Cuba 
either, at the very least, reforms its behavior, at the very 
most, changes its regime, and I am a little baffled by Mr. 
Flake's comment.
    I don't think anybody here was acting like a travel agent, 
but if I could capitalize on what Ileana said, if you have a 
burning desire to go somewhere, let me suggest if you don't go 
to Florida, you come to Las Vegas instead of Cuba. [Laughter.]
    Chairman Berman. The time of the gentlelady, the leader of 
the tourism caucus, has expired. [Laughter.]
    The gentleman from Indiana, Mr. Pence, is recognized for 1 
minute.
    Mr. Pence. Thank you, Mr. Chairman. I find myself in one of 
the rare moments where I disagree with my colleague from 
Arizona. We are usually pressed hard against the railing on the 
right together, but on this one, we will agree to disagree, but 
I do so respectfully, and not as a travel agent. As we all 
know, travel to Cuba is not banned. There are actually 18 
categories for which travel to Cuba is permitted. What is 
restricted, and what this hearing primarily boils down to, is 
tourist travel to Cuba.
    We are not talking about opening Cuba's free and open 
tourist industry. There is no such thing. What we are talking 
about are hotels and services which pay directly into the 
pockets of Cuba's Government and military. The average Cuban 
citizen can't even approach these exclusive hotels. Those who 
are permitted to be there for work are not paid adequately and 
are required to toe a strict party line. Those who argue for 
lifting this travel restriction say that Cuba will open up 
democratically.
    Chairman Berman. The time of the gentleman has expired.
    Mr. Pence. Well, I ask unanimous consent to submit my 
entire statement for the record.
    Chairman Berman. Oh, absolutely, and we will be coming 
back, of course, for a 5-minute questioning period.
    Mr. Pence. Thank you, Mr. Chairman.
    Chairman Berman. The gentleman from New York, Mr. Meeks, is 
recognized for 1 minute.
    Mr. Meeks. Thank you, Mr. Chairman. You know, it just seems 
to me, we fight for freedom in this country, and therefore, it 
seems that what this hearing is simply about is the freedom of 
the American people being able to choose where they want to go. 
This is the only country where the Americans have placed upon 
ourselves a ban of travel. I hear a number of members talk 
about some of these other countries that are so bad, yet we 
don't have such bans in these other countries as we have on 
Cuba.
    So, it seems to me that the only place where there is even 
a tourist travel ban in the world that we place on ourselves is 
in Cuba, but yet we have some of these other governments that 
are Communist, etc., and I here members talking how bad the 
place is, but yet they have visited these places. Leave it up 
to the American people. Those who don't want to go won't. Those 
who do will, but leave it up to the American people to make the 
choice, because that is what freedom really is about.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Georgia, Mr. Scott, is recognized for 1 minute.
    Mr. Scott. Thank you very much, Mr. Chairman. I think that 
I have listened to both sides of the argument here, and I think 
that we have an excellent opportunity. Where we have been is we 
are at a stalemate. No question about the violation of human 
rights, and no question about where we have gone in terms of 
our need for economic exchange with Cuba, but doing nothing 
keeps us where we are. Why not use this opportunity to get 
something out of this?
    I say yes, let us open up and let us travel. Now, we have 
got to understand, the ban doesn't stop the travel. What the 
ban does is stops the money, the finances from going there. 
This is a multibillion-dollar deal, and we need to go to the 
Castro brothers and say, let us make a deal. We will open up 
this ban, we will stop this, we will bring the tourists in, we 
will bring the billions of dollars in, but you have got to do 
this.
    You have got to release the prisoners, you have got to do 
something about the human rights, and let us remember, I 
believe that having more Americans on the streets in Cuba will 
help us to move quicker to a democracy in Cuba.
    Chairman Berman. The time of the gentleman has expired, and 
the gentleman from Florida, Mr. Klein, is recognized for 1 
minute.
    Mr. Klein. Thank you, Mr. Chairman and Ranking Member Ros-
Lehtinen. I thank you for allowing me to speak to an important 
issue to our South Florida community. Let me start by saying I 
have always supported a common sense Cuba travel policy, and I 
believe that family members should not be separated, so I did 
support President Obama's series of changes to U.S. policy 
which allow for lifting of restrictions on travel and 
remittances for Americans with family members in Cuba.
    The goal is to ensure that Cuban-Americans are able to move 
freely to visit their families. This is a large step, and the 
Cuban Government should not squander this new willingness and 
this opportunity that has been presented. Now that the United 
States has made changes to some of its longstanding policies 
toward Cuba, I believe it is time for the Cuban Government to 
respond in kind. Before permitting free travel between our two 
countries, the Cuban Government must respond to legitimate 
claims that have been asserted by the United States and its 
citizens for many years, and it is imperative that these be 
dealt with promptly.
    I thank the chairman and look forward to----
    Chairman Berman. The time of the gentleman has expired, and 
now our final recognition before we get to the witnesses, the 
gentlelady from Texas, Ms. Sheila Jackson-Lee, is recognized 
for 1 minute.
    Ms. Jackson Lee. Mr. Chairman, thank you very much, and 
thank the ranking member for the cooperation of this hearing. 
Some years ago, I was involved in the tragedy of Elian 
Gonzalez, the loss of his mother and family members that wanted 
to raise him. I indicated in my preference, after meeting the 
grandmothers, who lived in Cuba, that he should be returned to 
family. As I did that, I did not ignore the family members who 
are here in the United States, and I frankly believe he should 
have the benefit of all family members.
    So I think it is important that we open the doors of 
opportunity and that we recognize that, as we have opened the 
doors to China, that is not perfect, we open the doors to Cuba, 
and our intervention and involvement is critical. At the same 
time, we ask for concessions, interaction with the Cuban 
Government, and if we do that, we make America the greater 
country and we work together with the Cuban people. Let us lift 
the embargo.
    Chairman Berman. The time of the gentlelady has expired. 
All time for 1-minute statements has expired. We are now going 
to turn to our excellent panel of witnesses, one of whom will 
be with us by videoconference.
    First, I will introduce all the witnesses. General Barry 
McCaffrey is president of his own consulting firm based in 
Arlington, Virginia. He is also an adjunct professor of 
international affairs at the United States Military Academy at 
West Point, and serves as a national security and terrorism 
analyst for NBC News. From 1996 to 2001, General McCaffrey 
served as the director of the White House Office of National 
Drug Control Policy. Prior to that, General McCaffrey served as 
the commander in chief of the U.S. Armed Forces' Southern 
Command, coordinating national security operations in Latin 
America.
    Ambassador James Cason is currently president of the Center 
for a Free Cuba. He is a retired career Foreign Service 
officer, with 30 years of experience in Latin America. He was 
nominated by President Bush to be U.S. Ambassador to Paraguay 
and confirmed by the Senate. Prior to his posting in Paraguay, 
Ambassador Cason was chief of mission at the United States 
Interests Section, Havana, Cuba, from September 10, 2002 until 
September 10, 2005. Ambassador Cason retired from the Foreign 
Service in 2008.
    By videoconference, Miriam Leiva has been a human rights 
activist and independent journalist since 1995. In 2003, she 
was one of the founders of the Ladies in White, a women's 
organization that advocates for Cuban prisoners of conscience. 
In September 2008, she left the movement to focus on journalism 
and direct aid to Cuban prisoners of conscience and their 
families. A former Cuban diplomat, Leiva was expelled from the 
Foreign Ministry in September 1992 ``for lack of political 
confidence,'' and when she refused to divorce her husband, 
independent journalist and economist Oscar Espinosa Chepe, 
after he was accused of being a counterrevolutionary. Ms. Leiva 
will testify by videoconference from the United States 
Interests Section in Havana, Cuba. Please note that there is a 
4-second delay in the transmission.
    Ignacio Sosa is an executive board member of Friends of 
Caritas Cubana, a non-profit organization that raises aid for 
Caritas Cubana, the only non-governmental humanitarian 
organization with national reach in Cuba. He is a former 
executive board member of the Cuba Study Group. Mr. Sosa has 
been active in seeking an end to the isolation of Cuba, and he 
testified previously before the International Operations and 
Human Rights Subcommittee on lifting travel and remittance 
restrictions for Cuban-Americans.
    Berta Antunez is a Cuban citizen who has been active in the 
human rights movement in Cuba. Ever since she became aware of 
abuses committed against her unjustly imprisoned brother, Jorge 
Luis Garcia Perez, she came together with a group of other 
Cuban mothers in defense of prisoners' rights. In the early 
1990s, she helped create the National Movement for Civic 
Resistance, Pedro Luis Boitel, to fight harassment against 
their relatives in prison. Her movement has been active in 
ensuring prisoners' rights and publicizing human rights abuses 
against political prisoners.
    Our last witness is Philip Peters, vice president of the 
Lexington Institute. He served in the State Department's Latin 
American Bureau during the Reagan and George H.W. Bush 
administrations. He has reported on Cuban economic topics and 
analyzed U.S. policy toward Cuba for more than a decade and 
writes the blog, The Cuban Triangle. He holds degrees from 
Georgetown University School of Foreign Service and graduate 
school.
    Thank you all very much for being with us. General 
McCaffrey, why don't you start?

    STATEMENT OF GENERAL BARRY R. MCCAFFREY, USA, RETIRED, 
            PRESIDENT, BR MCCAFFREY ASSOCIATES, LLC

    General McCaffrey. Well, Mr. Chairman, thank you and 
Congressman Ros-Lehtinen for the opportunity to be here to join 
this very distinguished panel. I think it is an appropriate 
time to address this issue. Let me, if I may, add, I provided 
most of you with a copy of some other work I have done, 
particularly an op-ed I submitted at the Miami Herald a few 
months back dealing with this issue. A couple of thoughts.
    In January I will be back in Cuba again as an Adjunct 
Professor of International Affairs to listen to the situation 
on the ground and try and learn how we can move forward in the 
coming years to bring back into the community of nations the 
Cuban people, from which they have been isolated while under 
the control of a totalitarian regime for the better part of 50 
years. I take great sympathy with every remark made dealing 
with the suffering of the Cuban people, both economic and 
political.
    In January, I will also be the head of a delegation form 
the Vietnam Veterans Memorial Fund where we will again visit 
Vietnam, a place I fought on three combat tours, where we 
suffered 58,000 killed in action, over 300,000 wounded, where 
the Vietnam veteran, 3.5 million of us, have reached out to the 
Vietnamese people. We have de-mining projects, I will be 
opening a school in Quang Tri Province, etc., and I mention 
that just to put in parallel a viewpoint that I find our 
current policy toward Cuba, both in terms of the tourism ban as 
well as the economic embargo, to not make sense.
    It doesn't work, and more importantly, we have got Mr. 
Castro with one foot in the grave and the transition to power 
looming in front of us in the coming few years, and I would 
argue we want to engage with these people and try and bring 
them back into the rule of law and the coalition of democratic 
states. Again, I would underscore I understand the repressive 
nature of the regime. I don't think tourism in and of itself is 
going to blow away this mantle of oppression, but I do think it 
will allow the freedom of the American people to directly 
engage with the Cubans.
    I think our interests are served by lifting this tourism 
ban. I might add, and I say this as sort of a hard-nosed 
national security professional, I do not believe that the 
Cubans in any way are a significant threat to our national 
security interests. I think their very high-energy intelligence 
service is primarily a defensive measure in which they see us 
as their principal and overwhelming threat. I also think they 
are paranoid about it, which I tell them frequently.
    I think it is silly to think we are going to take military 
action against Cuba, but I think that is a lot of what is 
guiding them, but right now, you have got an island down there 
of 11 million people, desperately impoverished, except for the 
Communist elite, who are wearing good clothing, driving cars, 
have an opportunity to travel, but the actual military 
capability of the Cubans are almost nonexistent and I don't see 
them as a national security threat.
    So again, I very much identify with the many comments in 
the room, but I think Congresswoman Lee and Congressman Flake 
captured my view that this is also a freedom of choice issue 
for the American people. Thanks for allowing me to make these 
comments, and I look forward to responding to your own 
interests.
    [The prepared statement of General McCaffrey 
follows:]<greek-l>McCaffrey deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you, General.
    Ambassador Cason?

 STATEMENT OF AMBASSADOR JAMES CASON, FORMER CHIEF OF MISSION, 
              U.S. INTERESTS SECTION, HAVANA, CUBA

    Ambassador Cason. Chairman, thank you for the opportunity 
to address you today. I recently spent 3 years of my life as 
head of the U.S. Interests Section in Havana. Not many 
Americans have lived in a totalitarian country, so I speak to 
you from first-hand knowledge, not only of Latin America where 
I lived for 32 years, but also about the sad Cuban reality. I 
wish I could point to a policy, anybody's policy, that will 
induce the Castro brothers to embrace democracy and individual 
freedom.
    Unfortunately, no one in the world has been able to find a 
way to get Fidel and Raul to change their totalitarian stripes. 
I believe that no significant change is possible in Cuba while 
those two live. If I thought trade, tourist travel and 
investment were the miracle cure for ending dictatorship, I 
would be the first to advocate a change in policy, but there is 
simply no historical precedent or rationale for the argument.
    We typically hear four arguments for liberalizing travel. 
The first is that flooding Cuba with American tourists will 
instill greater yearning or understanding of democracy in Cuba; 
secondly, that tourist spending will help average Cubans; 
third, that our policy of isolating the regime has failed, so 
we should try something different; and finally, the libertarian 
argument that Americans have a constitutional right to go 
wherever they choose.
    Starting with the let us flood them with tourists proposal, 
why won't this help bring democracy to Cuba? It is because the 
Cuban authorities strictly limit and harshly penalize the 
interaction of ordinary Cubans with foreigners, and about the 
only Cubans tourists are going to meet are hotel workers. There 
are 103 hotels catering to foreign tourists in Cuba. Sixty-
seven percent of these are located in the remote keys and in 
Varadero.
    There are only 5,632 rooms for about 10,000 tourists in 
Havana, a city of 2.1 million. That works out to one tourist 
for 210 Cubans. Tourists are simply diluted in this sea of 
Cubans. The regime charges average Cubans the highest rack rate 
possible to stay in tourist hotels. That means that a night's 
stay would require an average Cuban's salary for a year. Again, 
that is why you are not going to find a regular Cuban in your 
hotel.
    The Cubans the tourists are permitted to see and question 
are trained to say the right thing. There is another problem 
with this flood argument. Few Americans speak Spanish well 
enough to hold a conversation on democracy or anything else 
with the average Cuban, who also rarely speaks English. 
Tourists go to Cuba for rum, sun, cigars, song and sex. They 
don't go to Cuba to spread democracy. At any rate, most Cubans 
know very well what democracy and freedom are.
    They have relatives, millions of them abroad. They don't 
need to be convinced to love or understand democracy. What they 
lack is a way to influence regime behavior. Tourism and trade 
have not brought down a totalitarian regime anywhere in 
history. That is because dictators refuse to let tourism do its 
alleged subversive work. If Castro thought that he could not 
control tourism, he simply wouldn't allow them in, but they can 
control it well.
    In the last decade alone, 15 million tourists from 
democracies have visited the island, including several hundred 
thousand Americans. Despite this, Cuba has not democratized or 
even liberalized. In fact, it has gone backwards. If tourism 
had any value as a catalyst for democracy, it would be the 
polyglot Europeans who would have a better chance at engaging 
Cubans, yet there is absolutely no evidence of any liberalizing 
impact of their stays or imprint of their footprints on the 
regime's behavior.
    It would be more accurate to attribute a strengthening of 
the state security apparatus to their expenditures, since the 
Cuban military owns the hotels they stay in and gets first 
crack at the cash flow. What about Cuban-American travel? Well, 
they spend a lot of money there, and I support it on 
humanitarian grounds, but nothing politically has come or can 
result from the visits of these Cuban-Americans because they 
have to get Cuban passports, they are screened, they are 
monitored they are videoed.
    If they misbehave, they are expelled or never allowed back 
in, and they don't want to jeopardize their chance of 
returning. Therefore, they don't get into trouble. And Cuba 
treats Cuban-Americans as Cuban citizens. It does not recognize 
dual citizenship. So a Cuban-American who gets into trouble 
will be denied access to USINT, and so they stay out of 
trouble.
    A final thought, when American tourists want to go to Cuba, 
usually in our winter and during vacations, the island's 30,338 
four- and five-star hotel rooms are booked solid with Canadians 
and Europeans. Would Fidel oust them to make room for 
Americans? Would he want to be dependent again on fickle 
Americans in this critical industry, American policy? I doubt 
it.
    Now to the argument that tourist expenditure will trickle 
down to the average Cuban Jose. Well, again, 15 million 
Europeans have spent tens of billions of dollars there. The 
benefits go exclusively to the state. Poor Jose has seen none 
of it. The regime knows how to and has prevented seepage or 
trickle-down from tourist expenditures. The tourists stay at 
all-inclusive hotels. The state owns the hotels, the bars, the 
restaurants, the clubs, the cigar and rum shops and the 
souvenir stands.
    The tourists can buy very little from average Cubans, and 
the hotel worker gets to keep very little of what a tourist 
spends. They only get 5 percent of the salary that goes to the 
joint venture partners. They can't unionize, they can't 
complain, they can't fight back. Again, the Cuban military 
controls the tourist industry. The third argument for a change 
in travel policy reflects the exasperation at the failure of 
anybody's policies in the world, anybody's in the world, to 
induce Castro, the world's most successful enduring tyrant, to 
morph into a democrat.
    So the cry comes out, let us just try something different, 
but what would be a new policy for us has already been tried 
and is policy in just about every country in the world, and 
there has been no positive impact on human or other fundamental 
rights in Cuba as a result. Everyone in the world but us talks, 
engages, invests, travels and trades freely with the regime, 
giving it the wherewithal to survive. We allow hundreds of 
thousands of Cuban-Americans to take goods and cash into Cuba 
and we sell Cuba a good percentage of its food.
    Again, what impact has this had on the regime? Have they 
released political prisoners, allowed free elections, opened up 
the internet, given labor rights, allowed families to start 
businesses, or given Cubans the right to travel freely and live 
where they want? No. Lifting the travel ban now will amount to 
giving away future leverage for nothing in return. We should 
hold this in reserve until the demise of the Castro brothers. 
An end to the travel ban should be used as leverage, as a 
carrot in support of those in a future transitional regime who 
will have a voice in whether Cuba goes toward more or less 
freedom.
    And regarding the so-called rights of travel of Americans 
to go anywhere they want, the Supreme Court ruled in 1984 in 
Regan v. Wald that Americans do not have a constitutional right 
to go where they want if the government has a policy reason not 
to allow that travel. So before we normalize relations with 
Cuba, the regime must show it is normal. It must engage in 
dialogue with its own citizens. Normalization is not an end in 
itself.
    We can't normalize with a totalitarian regime or cast aside 
our longstanding focus on human rights in Cuba in a quest to do 
something different, or in our haste to end the Cuban problem 
as a foreign policy issue. Normalization will result from Cuban 
actions to respect internationally recognized obligations and 
principles, and as we debate the future of our Cuba policy, let 
us not cease our support for dissidents and civil society, 
people on the island who want to have a say in what is best for 
their future. Thank you.
    [The prepared statement of Ambassador Cason 
follows:]<greek-l>James Cason deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you, Ambassador, and now from 
Havana, Ms. Leiva. It is your turn.

   STATEMENT OF MS. MIRIAM LEIVA, INDEPENDENT JOURNALIST AND 
                    FOUNDER, LADIES IN WHITE

    Ms. Leiva. Please allow me a few words first in Spanish. 
[Spanish testimony.] Ladies and gentleman, my husband, Oscar 
Espinosa Chepe, and I deeply appreciate this occasion to 
express our views concerning the very important issue to 
Americans and Cubans within our island nation and in exile that 
you are considering today. We fully support lifting the travel 
ban to Americans to visit Cuba. I assume you know that we have 
been dedicating our lives for the past 17 years to promote the 
well-being of our people through human rights activism.
    Oscar is an independent economist and journalist and was 
sentenced to 20 years in prison during the 2003 crackdown on 75 
peaceful individuals. Fifty-three of them are still in terrible 
prison conditions, and in Cuba there are over 2,000 political 
prisoners altogether, yet they do not feel hate, nor want 
revenge. Oscar was granted conditional release due to his very 
poor health but can be returned to jail at any moment, since 
under the terms of his parole he cannot write or talk openly, 
yet continues to do so.
    I am also an independent journalist and when he was in 
prison I was one of the founders of Ladies in White, for the 
release of the 75, until last year when I decided to focus on 
writing and directly assisting the prisoners and their 
families. To know the developments in a country and its people, 
to exchange ideas and experiences, to disseminate democratic 
traditions, it is essential to be there. Citizens of almost all 
countries find traveling commonplace, except for Americans and 
Cubans, although we are only separated by the short distance of 
the Florida Straits.
    The comprehensive links forced by generations, which 
intertwined our history through commerce, science, culture, 
music, sports, dreams and families, have suffered a great deal 
during the last five decades of estrangement. It is very 
difficult to understand that in the last 8 years, the United 
States has become Cuba's principal food supplier and fifth 
largest trading partner, but Americans cannot walk our streets 
or chat with our people.
    Only recently we celebrated the 20th anniversary of the 
fall of the Berlin Wall. It should be recalled that the Iron 
Curtain started to fall, to open up, by millions of Westerners 
visiting the countries beyond it. We are grateful to the 
visionary politicians who carried out the ``Policy toward the 
East'' that helped create the conditions for the swift and 
peaceful outcome. Americans played a significant role there. 
Today, you have a similar opportunity regarding Cuba.
    We are aware of the concern of many distinguished 
congresswomen and men over the financial impact of American 
tourism on the Cuban economy. Fearing the possibility of giving 
breath to the totalitarian regime. We believe that many 
thousands of Americans visiting Cuba would benefit our society 
and enhance our people. Firstly, through the free flow of ideas 
and further by pressing the government to open up self-
employment to provide goods and services such as renting rooms 
because the capacities in the hotels would be surpassed.
    It would improve the impoverished living standards, far 
more critical today than in the 1990s when some were allowed. 
Everyone will know that the Cuban state could not claim credit 
over this improvement, but that this comes from Americans. 
Cuban authorities have closed all private initiative to tie up 
the people economically, as a means to have them politically 
dependent. Of course, American visitors would spend money, 
collected by the Cuban Government, but it is so inefficient 
that it would only be able to keep small amounts; very little 
to cover its great needs.
    It is incapable of producing the scarce and low-quality 
food sold to our nationals and has to buy more than 80 percent 
of it abroad. Where? Mostly in the United States. Right now, it 
is impressive to find so many American products in our very 
limited supplied stores. No other country can compete in terms 
of quality and proximity, both of which stimulate trade in many 
ways. Imagine then the return of the money Americans spend, 
through purchases from American farmers and other businessmen, 
in order to supply hotels, restaurants and stores. In the 
short-run, many other possibilities would flourish.
    Cuban authorities have blamed the American embargo for 
great economic problems existing in our country, and deceived 
national and international public opinion by expressing desire 
of its lifting. In fact, they have used the embargo to justify 
all their wrongdoings, economic inefficiency, mismanagement and 
repression. They fear losing that alibi, just as they panic at 
the idea of having no excuse to prevent Americans from coming 
in.
    In spite of the propaganda and manipulation about what goes 
on beyond our tight sea boundaries, most Cubans find ways to 
know, are eager to listen, have lost faith in the unfulfilled 
promises, are exhausted by daily shortages and do not foresee a 
decent future. After 50 years of being locked away from the 
world, Cuban society is on the cusp of changes. It is not a 
matter of natural generational decay, but the exhaustion of a 
system that has fallen into a deep economic, political and 
social crisis with no solution other than deep changes.
    They might come from the power structure, aware of their 
inevitability, or from the people out of desperation and their 
civil commitment. They could be in a velvet fashion or in 
turmoil with great repression. We strive for understanding 
among all Cubans, for advancing democracy in a civilized and 
peaceful manner. The future of Cuba depends on what we Cubans 
do today, yet we are positive that less tension in the 
relations between Cuba and the United States will favor our 
goals.
    In a country where it is impossible for most citizens to 
have internet at home, we cannot dream of communicating with 
Americans in a way that is so common nowadays in most parts of 
the world, nor could anyone be able to experience reality here 
if he does not set foot on our land. This year we enjoyed an 
art exhibition from New York, but we could not have the 
pleasure of the New York Philharmonic Orchestra performing. 
Many scholars, scientists, businessmen, entrepreneurs, farmers, 
sportsmen, politicians and common people were not able to 
interact.
    Americans and Cubans have to stand up to the 21st century 
and restart our walks together, respecting the rights of our 
peoples, facilitating the path toward democracy, not waiting 
for Cuban authorities' gestures, but being proactive. We hope 
to greet you soon in Havana when all Americans could visit 
Cuba. Thank you.
    [Applause.]
    [The prepared statement of Ms. Leiva 
follows:]<greek-l>Miriam Leiva deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you very much for your testimony and 
for your courage. And now, Mr. Sosa.

STATEMENT OF MR. IGNACIO SOSA, EXECUTIVE BOARD MEMBER, FRIENDS 
                       OF CARITAS CUBANA

    Mr. Sosa. Thank you very much, Mr. Chairman and Ranking 
Member Ros-Lehtinen, for the opportunity to speak here today. I 
am a Cuban-American son, brother, nephew and cousin of Cuban 
heroes who fought in the Bay of Pigs and served time in 
Castro's jails. As a Hispanic and a Republican, I am a member 
of two minorities in my home state of Massachusetts and one of 
the 13 percent who voted for George W. Bush in 2004. However, I 
am part of a new and growing Cuban majority, the 67 percent 
that seek to end the isolation of Cubans and Americans from 
each other, and that is why I am here today.
    The ban on American travel to Cuba is an affront to those 
who believe that the right to travel is a fundamental right of 
all American citizens. We who believe in limited government 
object to the Orwellian notion of requiring a government 
license to travel to Cuba, the only country for which such a 
license is needed. The travel ban is a violation of our 
inherent right to privacy, of our right to free speech, of our 
right to freely associate with whom we wish, and of our right 
to pursue happiness.
    In a globalized world, travel acts as a powerful 
transmitter of new ideas that enriches both the traveler and 
the country visited. Cuba today is an island isolated not only 
from its largest neighbor but also from the free flow of ideas 
and people. Yet, the rise of independent bloggers on the island 
reminds us that even the most repressive of governments cannot 
stop new technologies from spreading timeless ideas of freedom 
and democracy.
    It is time for Americans to start developing relationships 
with Cubans from all walks of life. This is especially true as 
Cuba nears its rendezvous with leadership change. Sharing our 
hopes and dreams with those who live in the quiet despair of 
Communist Cuba can only help reawaken the thirst for freedom 
that resides in every repressed Cuban heart. To those who point 
to the large number of Canadian tourists who travel to Cuba and 
say, how come Canadian tourism has failed to produce material 
change for Cuba, I say this is a completely false analogy.
    The population of Canada is almost one-tenth the size of 
the United States. Moreover, Canadian Hispanics and African-
Canadians account for a combined 4 percent of that country's 
population, versus a combined 28 percent for those same ethnic 
groups in the United States, and I would add that the 
percentage of Hispanics and people of African descent from 
European countries is even smaller. So not only are the numbers 
of American tourists traveling to Cuba going to be much greater 
than anything we have seen from Canada, but those American 
tourists are much more likely to share demographic and cultural 
ties with the Cuban people, and by the way, according to the 
U.S. Census Bureau, 34.5 million Americans speak Spanish as 
their first language. That is more than the entire population 
of Canada.
    The recent incident involving Cuban security forces beating 
and detaining three well-known dissident bloggers is a useful 
reminder of the totalitarian nature of the Cuban Government. 
The assault and arrest of the bloggers occurred just when the 
United States asked Cuba for progress on human rights as part 
of a potential roadmap to normalizing relationships. This is no 
coincidence. History is littered with instances of Cuba taking 
deliberate steps to sabotage American efforts toward 
rapprochement.
    It is clear that Cuba, like Iran, uses hostility from the 
United States as a way to legitimize its totalitarian 
government and explain away decades of failed economic policy. 
President Obama, Secretary Clinton and the U.S. Congress should 
not take the bait being offered by the Cuban Government when it 
attacks the Cuban bloggers. It is important that the United 
States pursue policies that increase people-to-people contact 
between the two countries, regardless of whatever steps the 
Cuban Government might take in response.
    Conditioning improvements in the effectiveness of U.S. 
policy to whatever actions Cuba pursues effectively puts 
control of our foreign policy in the hands of the Cuban regime. 
Lifting the ban on American travel to Cuba and allowing more 
Cubans to enter the United States on travel visas will do more 
to further the cause of freedom than the tit for tat of 
diplomatic gamesmanship. The real losers in that game are 
always the same, the long-suffering people of Cuba.
    As we celebrate the 20th anniversary of the fall of the 
Berlin Wall, it is important to remember that none of the 
Eastern European countries that threw off the yoke of Communism 
were isolated from their Western neighbors, not one. Moreover, 
it was exposure to Western travelers, media, and a general 
familiarity with the how the West works that inspired millions 
in Eastern Europe to seek a future free from Communism.
    Cuba is no different. It is time to put the Cuban 
Government on the defensive by removing all United States 
Government obstacles to the isolation of Cubans from Americans. 
If Cuba's Government fails to respond with greater openness, 
the blame will fall squarely where it belongs, on the shoulders 
of the Cuban Government. America should never again allow the 
Cuban Government to use American policy as a scapegoat for that 
regime's many failures.
    So, I finish my pleading with the members of this 
distinguished committee in the House of Representatives to pass 
the Freedom to Travel to Cuba Act. I also ask Senator Kerry, as 
chairman of the Senate Committee on Foreign 
Relations<greek-l>Affairs deg., to cosponsor and mark up the 
Senate version of the Freedom to Travel to Cuba Act. Thank you 
and may God bless America.
    [The prepared statement of Mr. Sosa 
follows:]<greek-l>Ignacio Sosa deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. Ms. Antunez is next. She will speak in 
Spanish, and then her comments will be translated, and so this 
will take a little longer than the normal presentation. Ms. 
Antunez.

  STATEMENT OF MS. BERTA ANTUNEZ, SISTER OF FORMER POLITICAL 
 PRISONER JORGE LUIS GARCIA PEREZ (``ANTUNEZ''), PRO-DEMOCRACY 
                            ACTIVIST

    [The following statement was delivered through an 
interpreter.]
    Ms. Antunez. Good morning. My name is Bertha Antunez 
Pernet. I come here today as the sister and niece of political 
prisoners. I left Cuba a short time ago. As an activist in my 
country, I worked as best I could to organize the family 
members of political prisoners to advocate for their release.
    My uncle, Omar Pernet, who has serious health problems 
after spending several years in prison, was removed from prison 
to Spain last year. My brother, Jorge Luis Garcia Perez, 
usually known as Antunez, who served 17 years as a political 
prisoner, remains in Cuba, struggling for freedom as part of 
the resistance for the rights of the Cuba people, and for the 
democratic change that the majority of the people want.
    The Castro Government's war again those Cubans who 
peacefully advocate for change in Cuba seeks to maintain and 
increase repression, while avoiding criticism on the global 
stage, and international condemnation of its repressive 
conduct.
    The Castro regime feels emboldened by the half-dozen Latin 
American heads-of-state who travel to Havana to embrace the 
region's longest reining and bloodiest dictator; by Spain's 
policy toward the island, the objection of which is to bolster 
and uphold the dictatorship, and by the increasing influence of 
Hugo Chavez in the region.
    On the other hand the regime fears the ever more manifest 
defiance and non-cooperation of the Cuban people. Therefore, 
perceiving the weakness in the world democratic community, it 
has made its dirty war ever more public in an effort to still 
the unrest in the hearts of the Cuban people. The physical 
attack on blogger Yoani Sanchez and her companions just a few 
days ago is an example of this.
    My own brother, Jorge Luis', release from prison in April 
2007 has decided to remain in our country in order to continue 
the civic struggle for democratic change. He has been the 
target of constant arrests, beatings, and harassment by 
Castro's repressive apparatus.
    Jorge Luis has seen how the Castro regime becomes bolder 
and bolder in its repression as it receives unilateral 
concessions from the world's democracies.
    In April of this year, in a letter to the Cuban-American 
Members of Congress, he wrote that it is extraordinarily 
remarkably that while the Castro regime increases repression, 
that the mistreatment of our compatriots inside and outside of 
the prisons increases, certain particular sectors of the United 
States seek engagement with the oldest and most repressive 
dictatorship of the continent.
    Therefore, I believe that this is not the time for the 
United States Government to transform its policy regarding 
travel to Cuba. Indeed, those who in good faith believe that by 
doing this that they will help the Cuban people are mistaken.
    I say this as someone who was born and lived all her life 
in Cuba until a short time ago, and I am speaking to you about 
the reality I know well. Throughout all my life, I have faced 
and confronted the prison wardens, the state security agents, 
the military personnel, and agents of repression, who are the 
true face of the regime.
    I know the regime's contempt for the Cuban people, and how 
they show no mercy to those of us who are Black. The 
experiences that I have lived through do not allow me to fall 
under the spell of the regime's sophisticated diplomats, agents 
of influence in key positions, or of its professional 
propagandists.
    The real people of Cuba, the Cuban people that suffer and 
deeply desire to live in freedom, will not benefit from any 
tourist travel. Rather, those resources will serve the 
totalitarian regime to increase its repressive capabilities.
    Some people ingenuously think that tourists will have 
direct contact with the Cuban people, and that this will help 
Cubans to have a clear vision of freedom. In the first place, 
Cubans are reprimanded, fined, and even imprisoned for 
maintaining contact with tourists.
    There are places in Cuba where Cubans are subject to 
restricted entry or time schedules so that they will not be 
present at the same time as tourists.
    It must be understood that for years European, Canadian, 
and Latin American tourists have traveled to Cuba without 
having any impact on the Cuban reality, but rather on the 
government's coffers.
    It is an error to think that American tourism will mean 
something positive to the Cuban people. What the Cuban people 
need once again is the support of the American people in their 
struggle for freedom.
    The Cuban people and the internal resistance, more so than 
they need tourists, need people who will stand in solidarity in 
the United States Congress, and advocate for their liberation.
    We ask recognition for the men and women who run grave 
risks for the sake of the rights of an entire people. We ask 
for a voice to be raised against the repression, the prisons, 
and the censorship imposed against our people for 50 years.
    There are those that hold that the Castro regime repress us 
in order to avoid a rapersmong with the United States. This is 
to mistake the real nature of that regime. The Castro regime 
represses because its priority is to stay in power.
    The reason that it has spent 50 years killing, imprisoning, 
prosecuting, and forcibly exiling Cubans is because it knows 
very well that the immense majority of the Cuban people desire 
freedom. If the Cuban people were not repressed, we would 
already be free.
    The regime wants the discussion on Cuba in a place as 
important as this to evolve around the questions of tourists or 
no tourists, commercial relations or no commercial relations, 
because the regime fears this Congress making the debate on how 
the United States can directly support those who struggle for 
Cuba's freedom its priority.
    And I ask you to echo the opinion of my brother, Antunez, 
and of many thousands of Cubans on the island, on which side 
does the United States Congress wish to be; on the side of 
those who engage in repression and attempt to silence the free 
thought and voice of the Cuban people; on the side of those who 
today engage in torture in Cuban prisons; or on the side of 
those who engage in civic non-violent struggle for Cuba's 
freedom?
    On the side of the unarmed and repressed, or on the side of 
those who flaunt their powers self-servingly, and 
unscrupulously for over 50 years? On the side of a totalitarian 
regime nearing its end, or on the side of a young and vigorous 
resistance that sooner, rather than later, shall take the reins 
of its country? Thank you.
    [Applause.]
    [The prepared statement of Ms. Antunez 
follows:]<greek-l>Berta Antunez deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. Thank you. Let me explain our situation. 
There is a vote on and we are going to have to recess for about 
20-25 minutes. We will come back to hear Mr. Peters, and then 
we will have questions.
    Ms. Leiva, if you can stay to be available for questions, 
we would be very grateful. If that is not possible, we will----
    Ms. Ros-Lehtinen. Mr. Chairman, if I could just ask a 
question about the seating. We had a little incident and 
everything got worked out, but now folks are seated, and they 
probably like where they are seated.
    How can we make sure that they can come back to those 
seats, or will it be new seating. I am trying to avoid an 
incident. We have got lots of other people who would like to 
sit, but some folks are happy with the way it is. So let us 
have a policy that will apply fairly to everyone. I am fine 
with whatever you choose to do.
    Chairman Berman. Everyone who is seated probably should 
hold on to their seat. That is the safest way, and we will 
bring the caterers in while we are away. No. Look, it will be a 
little bit of a late lunch, but no one is--we do not want to 
get into a thing where people are coming and somebody is 
standing up for a second, and taking someone's seat. That would 
not be fair.
    So the folks who are here, we will give you short-term 
property right to your chair. Thank you.
    [Recess.]
    Chairman Berman. The hearing will resume. I believe that 
everybody has the seat that they want. We left off with Mr. 
Peters about to begin his testimony, and so we look forward to 
hearing from you.

   STATEMENT OF MR. PHILIP PETERS, VICE PRESIDENT, LEXINGTON 
                           INSTITUTE

    Mr. Peters. Thank you, Mr. Chairman, and thank you, 
Congresswoman Ros-Lehtinen, for having us here today. I am very 
pleased to be with you and to be with this distinguished group 
of witnesses on this panel.
    I want to begin by saying that I particularly appreciated 
your opening statement, Mr. Chairman, and the article that you 
had in The Miami Herald the other day. I think that it has been 
quite well demonstrated over 50 years the point that you made, 
that conditionality, which is a perfectly good concept to use 
in foreign affairs, in this case has yielded no leverage for 
us.
    And that the idea of conditionality in this case as we have 
used it for so many years has resulted in a policy where the 
levers of our policy are in Havana and not in our own hands, 
and that is wrong, and it prevents us from doing a lot of good 
things.
    You have been debating this issue for a long time, the 
issue of travel restrictions to Cuba, but now you are debating 
in a different context, and that is as a result of the measures 
that President Obama took in September of this year.
    He changed our regulations, and I think it was a very good 
thing to do, so that Cuban-Americans can now travel freely to 
Cuba without restriction. They can go for as long as they want. 
They can go as often as they want, and on top of that, he said 
they can send as much money as they want to their relatives. No 
restriction whatsoever.
    So this changes the issue before you. The issue before you 
now is whether to maintain this policy, where you have one 
ethnic--a division of Americans along ethnic lines, and one 
group has no restriction. Fifty flights a week. They are 
filling the airport in Miami. Some of them are going from New 
Jersey and elsewhere.
    So you can maintain this policy where one group can go 
without restriction, and the rest of us are under the sanctions 
and penalties under the Trading with the Enemy Act, or the 
other option is to treat all Americans alike, and give us all 
the same freedom. I obviously opt for the second one.
    It is argued that Cuba is a special case somehow, and that 
if we have contacts in Cuba that we won't get any influence in 
Cuba, or that there is no interaction in Cuba between 
foreigners and Cuban citizens, and that other country's 
travelers have had no impact in Cuba.
    That when travelers go there, no funds get to the Cuban 
people, or as one of the gentlemen on the Republican side said, 
no foreign travelers ever do anything to help Cuban civil 
society. Every part of that argument is a complete myth, and if 
you go to Cuba, you will see that is the case.
    And we have added to it today a statement by Ambassador 
Cason in his written testimony, that quote, most likely the 
Cuban that an American would encounter and converse with, the 
Cuban will not be interested in the foreigner's view of 
politics, but will solicit money, toiletries, or sex, or be 
asked if he can help get a person out of the island.
    I think that is a myth and a pretty remarkable statement, 
not to say contemptuous. Let me be clear. I don't believe that 
a policy of unrestricted travel by Americans is going to 
transform Cuba. We have miscalculated a lot.
    You go to the Kennedy administration, and you go to the 
Bush administration that just ended, lots of miscalculations in 
our policy, and I am not going to represent to you that 
American travelers are going to magically change the political 
order in Cuba. That is not the case, anymore than anybody can 
promise to you that sanctions will do it.
    But what we can realistically expect that if we allow 
Americans to travel without restriction that we will increase 
our influence in that country, where influence is quite low 
now, at a pivotal time in Cuba's history.
    Unrestricted travel will create an explosion of 
communication between our country and theirs. You know, 
Congresswoman Ros-Lehtinen rightly pointed out all the 
licensing categories, but a lot of Americans, and most 
importantly, a lot of institutions in our civil society are 
deterred by those categories.
    I mean, if you are a college administrator or if you work 
at a church, or if you lead a congregation at a synagogue, or 
you are a university president, you can go to any country. If 
you want to go to Cuba, you need a license form the Federal 
Government.
    If you want to bring a donation to Cuba, well, that is a 
restricted export. You need a license from a second agency of 
the Federal Government. That holds a lot of people back. The 
explosion of contacts, if we got rid of those disincentives, 
would be huge.
    Another point that I want to make is that there is a 
particular thing about Americans in Cuba in that historical 
context. The Cuban Government does not call Canada the empire. 
They don't claim that Luxembourg has a policy of a genocidal 
blockage against them.
    The Cuban Government has used this idea that the United 
States is against them. That our Government is trying to bring 
them down. For years, they have used it to justify their 
internal policies, including their repression.
    If we eliminate our travel restrictions, and Americans are 
circulating freely there, it makes it a lot harder for the 
Cuban Government--and Yoani Sanchez, who has been mentioned a 
lot of times today, she has pointed this out.
    That it makes it a lot harder for the Cuban Government to 
make us this external enemy, this external threat, and a 
scapegoat for their own policies.
    Finally, about the issue of money. Obviously. Cuba is not a 
free market economy. Obviously, it is an economy dominated by 
the State, but there are entrepreneurs there, some operating 
legally and some operating not so legally.
    There are about 5,000 homes in Cuba where people have 
licenses to rent rooms in their homes. There are more of 
those--there are more beds in those homes in the City of 
Baracoa than there are in the State hotels in that city.
    There are hundreds and hundreds of them in Havana. These 
people make a livelihood when foreigners. They employ people. 
Sometimes legally, and sometimes not quite so legally. But they 
employ people, and they feed their families well.
    Yes, they pay taxes. We pay taxes, too, unfortunately. But 
they make a good living, and if more Americans could go, then 
those people who rent rooms in their homes, artists that make 
money by selling their work to foreigners, and other 
entrepreneurs--taxi drivers, restauranteurs--they will have a 
better living, and that incipient private sector in Cuba will 
expand. That is very much in our interests to see.
    I think that these are reasons why so many people in Cuba, 
who in my experience, uniformly welcome Americans, and why so 
many people in Cuba think we should change the policy as you 
suggested by allowing unrestricted travel.
    The Catholic Church has called for it for many, many years. 
Dissidents, such as Oscar Espinosa Chepe, Elizardo Sanchez, the 
leading human rights monitor in that country, Osvaldo Sia, a 
lay Catholic activist, Valdimir Roca, they have all called for 
an end to travel restrictions.
    And every time that I have seen--and again everybody is 
mentioning Yoani Sanchez, the blogger who was detailed recently 
and beaten. Every time that she has addressed the issue, she 
said that we should allow unrestricted travel, and she is 
against the whole embargo itself.
    So really what it boils down to, Mr. Chairman, I believe is 
a question of confidence, a question of whether we are 
confident that somehow the regime sanctions that we have 
maintained for all these years is going to have an impact, or 
whether something else might work, and whether we might have 
greater confidence in the ability of Americans to carry the 
American idea to Cuba, and to represent our system of 
government, exchange information, bring resources to Cubans, 
help Cuban civil society.
    Secretary Schultz wrote to you. Secretary George Schultz 
wrote to you and he pointed out that he thinks that our 
sanctions in general are ridiculous. He thinks that there is 
some kind of transitioning of some kind going on, and it is 
much more likely that we would get a constructive outcome if 
there is a lot of interaction between Cubans and Americans.
    I agree with him, and I wish I had much more confidence in 
unrestricted travel, and interaction between our society and 
Cuban society, and that will serve our national interests. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Peters 
follows:]<greek-l>Philip Peters deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. Well, thank you very much, Mr. Peters, and 
all of you, and now we will start the questioning. I will yield 
myself 5 minutes. This morning a number of people have 
mentioned Yoani Sanchez, the Cuban blogger, and Mr. Peters just 
referred to her. She was beaten up a few weeks ago by State 
security agents in Havana, while on her way--ironically 
enough--to an anti-violence demonstration.
    For those of you who do not know her, Yoani has a track 
record of telling the unvarnished truth. As a university 
student, she titled her dissertation, ``Dictatorships in Latin 
American Literature.''
    Since it was taken as a veiled criticism of the Castro 
regime, she was denied an academic career. Now she earns a 
living in Havana's tourist industry and blogs for free. Time 
Magazine named her one of the most influential people in the 
world.
    The Spaniards have awarded her their equivalent of the 
Pulitzer Prize, and last month, she was awarded the Maria Moors 
Cabot Prize, the oldest award in international journalism form 
Columbia University's Journalism School.
    She has never been allowed to leave Cuba to collect her 
awards. She wrote an essay for this hearing, and it is part of 
the record; I would like to read just a few excerpts.

          ``Over the course of several decades,<greek-l>''--and 
        I am quoting now--`` deg. Cuban exiles and tourists 
        have brought part of the information that has served to 
        undermine the myth of the supposed<greek-l>, 
        quote, deg. `paradise<greek-l>, deg.' in which we live. 
        . . . There is nothing more corrosive for a state that 
        holds itself up as the father and savior of a nation, 
        than the testimony of those who, in other latitudes, 
        have greater space to realize their 
        dreams<greek-l>, deg. and greater tolerance for their 
        opinions. . . .
          ``Faced with no evolution of our current political 
        and social situation, an opening of travel for 
        Americans could bring more results in the 
        democratization of Cuba than the indecisive performance 
        of Raul Castro.''

    And finally she says--and I am excerpting from an entire 
statement:

          ``Eliminating these long obsolete travel restrictions 
        would mean the end of the main elements with which 
        official propaganda has repeatedly satanized American 
        Administrations, and the achronistic travel permit that 
        we Cubans need to enter and leave our country would be 
        even more ridiculous. Of the phrase spoken by Pope John 
        Paul II that January 1998 in the Plaza of the 
        Revolution--<greek-l>quote, deg.`Let Cuba open itself 
        to the world, and <greek-l>to  deg.let the world open 
        itself to Cuba'--only the first part would remain to be 
        accomplished.''

    [The information referred to follows:]<greek-l>Yoani 
Sanchez blog deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. So this is what she says, and Ms. Leiva, I 
would like to ask you to expand a little bit on the point that 
you touched on in your testimony.
    We have heard the notion that more Americans coming and 
visiting Cuba, their only interaction will be with a few hotel 
workers, although they are people, too, and that essentially 
the Castro regime will get all the financial benefits, and our 
notion of what might happen in terms of greater interaction 
between Americans and Cubans, greater information for Cubans 
about America, our intentions, our purposes, our lives, none of 
that would happen. You are there. Why do you think differently?
    Ms. Leiva. The Cuban Government has always tried to prevent 
people from getting together or to knowing a tourist, or people 
coming from abroad. It is each time more difficult for them 
because people want to know, and are friendly, and want to talk 
with all visitors.
    Besides that the Cuban people are losing fear. Repression 
is still in place, and there is the political police and 
informers, and the police in defense of the revolution, but 
each day more and more people speak out what they feel are 
their daily problems.
    And besides that, it is very important that repression--it 
is not enough to people who have lost confidence in the 
government, and who have been deceived by the promises, and 
want something different. They want to have a better future, 
and they want to be able to speak, and want to travel, and want 
to listen.
    So the situation in Cuba has changed a lot. I won't say 
that it is definite to overcome or----
    Chairman Berman. Ms. Leiva, I hate to interrupt you. I 
should have indicated that each member, including unfortunately 
me, is limited to 5 minutes, and I took 4 of the minutes 
myself. I didn't leave you enough time and I apologize, but my 
time has expired. I am sure that we will be coming back to you. 
The ranking member, Ms. Ros-Lehtinen, is recognized for 5 
minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. If I 
could direct my question to Mr. McCaffrey. Earlier this year at 
a hearing of the Subcommittee on National Security and Foreign 
Affairs of the Committee on Oversight and Government Reform, 
you testified, and I quote, ``Mr. Castro engaged me for a 
couple of hours on''--and I will continue quoting you, but I 
always find it intriguing that people are so proud of the 
number of hours that Castro spends with them.
    He spent 2 hours. No, he spent 3 hours with me, 4 hours, 5 
hours. I guess it gives you some kind of bizarre street cred or 
badge of honor. Anyway, you say that Mr. Castro engaged you for 
a couple of hours. Whoa. And ``he wants his spies back from 
Florida. I remember telling him, I said, `Mr. Castro, I am sure 
that you are very proud of these men, and they are Cuban 
patriots, and you will get them back eventually when we have 
normalized relations.' ''
    I find it regrettable, Mr. McCaffrey, that you would refer 
to these Cuban spies, who were convicted in our United States 
fair criminal justice system, and whose cases were reheard 
again, and whose convictions were once again reaffirmed, as 
patriots, and that you focus on returning these spies to the 
Cuban regime.
    Yet, you do not mention cop killers like Joanne Chesimard, 
and other fugitives of United States law, and United States 
justice, who were given refuge by the Cuban regime.
    Also in your testimony from April of this year, you noted, 
and I quote,

          ``There is no question that there are lots of drugs 
        floating around Cuba, and particularly washing up on 
        shore. You know, bundles of cocaine and marijuana.
          ``But it was clear to me that they were not on a 
        government basis, but part of an international 
        conspiracy to threaten the regime, and to threaten 
        their sense of Communist morality.''

    Communist morality? Given the brutal repressive apparatus 
of the regime that rules Cuba, the totalitarian dictatorship, 
exerting absolute control over the island and its people, do 
you really think that Fidel, and Raul, and the regime elite, 
are not aware of drug trade in and out of the island, and do 
not facilitate or sponsor such activities?
    And also in your testimony before the Government Reform 
Subcommittee, you said, and I quote, ``I would bring some of 
them''--meaning Cuban officials--``into our schooling system. I 
would get two of them to go to Leavenworth. You know, the first 
5 years, they would all be intel people. But eventually they 
would get jealous and some of the commerce would get the slots. 
So, dialogue and engagement on areas of mutual interests, that 
will work.''
    Now, in light of the significant threat posed to our Nation 
and our interests by Cuban espionage, and in light of the 
recent massacre at Fort Hood, where all of these signals, and 
all of these signs were completely overlooked, how can you have 
no problem with opening the doors of Leavenworth and our 
training programs to Cuban intelligence agents, who are 
declared enemies of the United States? I find that shameful, 
sir.
    General McCaffrey. Well, let me first of all correct you. 
My title is General after 32 years of military service.
    Ms. Ros-Lehtinen. I apologize.
    General McCaffrey. Wounded in action three times, and I am 
offended by your deliberate marginalization of my viewpoints, 
and let me go on to say that it is clear in my own mind----
    Ms. Ros-Lehtinen. I was quoting you, sir. Are those not 
quotes, sir? Are those quotes, yes or no?
    General McCaffrey. I am offended by your language.
    Ms. Ros-Lehtinen. You are offended by your quotes?
    General McCaffrey. Now, let me go on to continue to respond 
by saying----
    Ms. Ros-Lehtinen. What part of your quotes offend you? Your 
quotes offend you.
    General McCaffrey. Are you going to let me answer, or are 
you----
    Ms. Ros-Lehtinen. I have my 5 minutes. I can do what I wish 
with my 5 minutes, General. So, go ahead. I want to know. Are 
you offended by your quotes? I was quoting you.
    General McCaffrey. Are you done? Well, if you are asking me 
if I think that Cubans are a national security threat to the 
United States, my answer is that if you ask for the top 20 
national security threats, they would not be among them.
    Now, my actual viewpoint, however, is that United States 
national interests will be better served by lifting the travel 
ban, by engaging in diplomatic contact with them, and by 
lifting the economic bans, than you will by the current 
policies.
    Ms. Ros-Lehtinen. The specific questions that were asked of 
you whether you do not feel that our security would be at any 
risk by your quote saying that you would invite these officials 
to come into our facilities.
    General McCaffrey. Oh, this is silly.
    Ms. Ros-Lehtinen. That is your quote. You are offended by 
your quote?
    General McCaffrey. Your argument to be honest does not 
apply to the realities. What I support is people-to-people 
engagement, diplomatic engagement----
    Ms. Ros-Lehtinen. I am reading from your quote, sir.
    General McCaffrey [continuing]. Economic engagement, and 
those are the policies that I endorse.
    Ms. Ros-Lehtinen. Just the facts.
    Chairman Berman. The time of the gentlelady has expired. 
The gentleman from Massachusetts, Mr. Delahunt, is recognized.
    Mr. Delahunt. General McCaffrey, I want to go on the record 
and say that I consider you a great American patriot.
    [Applause.]
    Mr. Delahunt. But let us talk about our national security. 
Are you familiar with Admiral Jim Lloyd?
    General McCaffrey. Sure. He is a former Commandant of the 
Coast Guard.
    Mr. Delahunt. Right. Are you familiar with General Jim 
Thomas Hill?
    General McCaffrey. Yes, the former commander of the United 
States Southern Command.
    Mr. Delahunt. And that includes, I take it, the island of--
the jurisdiction would include the Caribbean.
    General McCaffrey. Sure, the Caribbean.
    Mr. Delahunt. Are you familiar with General Jack Sheehan?
    General McCaffrey. Sure, Four Star Marine, very patriotic, 
and----
    Mr. Delahunt. And highly decorated?
    General McCaffrey. Yes.
    Mr. Delahunt. Another patriot?
    General McCaffrey. Right.
    Mr. Delahunt. Are you familiar with Lieutenant Robert Gard?
    General McCaffrey. Lieutenant General Bob Gard, yes.
    Mr. Delahunt. Lieutenant General John Costello?
    General McCaffrey. I know him by reputation, but I don't 
know him, yes.
    Mr. Delahunt. Brigadier General John Adams?
    General McCaffrey. I only know him by reputation.
    Mr. Delahunt. Okay. And I know that you know General 
Charles Wilhelm?
    General McCaffrey. Yes, a very fine, Four Star Marine, 
retired, and a former SOUTHCOM commander I might add.
    Mr. Delahunt. Okay. Well, I am going to read--and this was 
not a letter that was signed. It is now as I understand in the 
record, but I want to read excerpts from this letter, because 
it goes to the issue of national security, American national 
security.
    And this is the letter that these men signed, these 
American patriots, that have fought for this country. United 
States policy toward Cuba has not only failed in its principal 
objective of ending Cuba's Communist system, but has harmed our 
interests across the board.
    Most important it works against our national security 
interests. In our judgment the committee would advance the best 
interests of the United States by acting favorably on H.R. 874, 
the Freedom to Travel Act.
    Do you concur with the conclusion that these gentlemen 
submitted for the record?
    General McCaffrey. I do, yes. I think it is a very sensible 
viewpoint.
    Mr. Delahunt. Okay. To Mr. Sosa. I had never heard the 
argument before until Mr. Cason's testimony relative to lifting 
the travel ban would be of no avail because we don't speak 
Spanish, and who is going to talk to us, and who are we going 
to talk to.
    And you made an observation, or I think you noted that how 
many Hispanics?
    Mr. Sosa. According to the United States Census Bureau in a 
2004 report, 34.5 million speak Spanish as a first language.
    Mr. Delahunt. As a first language? Okay. Well, some of us 
do speak Spanish; 34 million of us speak Spanish as a first 
language. I wonder how many of those 34 million are Americans 
of Cuban descent?
    Mr. Sosa. I think the Cuban-born citizens in this country, 
I think, are 1.5 million. I may be wrong on this.
    Mr. Delahunt. I see. So, there are 33 million other 
Americans out there that speak Spanish as their first language. 
I would suggest that that argument put forth by Mr. Cason 
really does not seem to hold water.
    But he did reference a case decided back in 1984 in the 
midst of the Cold War, where he said that the authority of the 
President, if he has a policy issue, he suggested that it was 
unfetted and untrammeled.
    But let me read from the language of that case. In the 
opinion of the State Department, Cuba, with the political, 
economic and military backing of the Soviet Union, has provided 
widespread support for armed violence and terrorism in the 
Western Hemisphere.
    Cuba also maintains close to 40,000 troops in various 
countries in Africa and in the Middle East in support of 
objectives hostile to the United States foreign policy 
interests. Therefore, we think there is an adequate basis under 
the due process clause of the Fifth Amendment to sustain the 
President's decision to restrict travel.
    General McCaffrey, are we faced with the same conditions 
today?
    General McCaffrey. No.
    Mr. Delahunt. Are there still 40,000 Cuban troops all over 
the world?
    General McCaffrey. No, I think that my take on the island 
right now is that it is one of the poorest places on the face 
of the earth with an incompetent military.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Arizona, Mr. Flake, for 5 minutes.
    Mr. Flake. I thank the chairman, and just before questions, 
I want to dispel something that has been brought up a number of 
times here. It has been said that people want to go to Cuba, I 
believe, and Mr. Cason mentioned the tourists go there for rum, 
sex, or whatever else, this list of pejoratives.
    And I have heard from others as well that seems to indicate 
that the only reason that people go to Cuba is to lie on the 
beach and drink mojitos, and I think it is deeply offensive to 
a lot of Americans who go for a number of reasons, and not just 
to sit on the beach.
    And the notion that we don't have a travel ban, and that we 
only have a currency ban, that is just grasping at straws 
basically. Tell that to the woman--and I believe she was from 
Indiana--who went to Cuba to distribute bibles with her church 
group.
    She was not aware of the restrictions. She went through 
Canada because that is where they were going through, and she 
went there to distribute bibles, and she got fined when she got 
back. I would like for her to say, well, there is no ban on 
traveling to Cuba.
    And this notion that everybody goes for these prurient 
reasons is just offensive to so many Americans who go there. 
Sure, every place in the world, you will have bad actors, but 
to lump everybody who goes to Cuba and travels to Cuba into one 
group, who are simply seeking sex tourism or something is just 
deeply offensive, and I have to say that from the outset.
    Mr. Cason, in your testimony, you mentioned that tourism 
and trade have not brought down a totalitarian regime anywhere 
in history. You note that there is no evidence to suggest that 
increasing tourism to Cuba will help promote democracy.
    Do you have any evidence to present that indicates that 
isolating a regime anywhere in the world like this has fostered 
democracy?
    Ambassador Cason. I would like to mention what Lech Walesa 
and Vaclav Havel talked about on the question of tourism and 
the freedom of Czechoslovakia and Poland. They said it had 
absolutely no relevance whatsoever.
    The point I am making is about tourist travel. We are not 
talking about the other 18 categories. The notion that allowing 
tourists to go to the areas where basically the hotel rooms 
are, which is Varadero, Cayo Coco, and other areas that I think 
you are aware of, and that I have visited, the idea that those 
people going there can somehow promote democracy, and interact 
with the Cuban people, in fact, it can't happen, it doesn't 
happen.
    Mr. Flake. Reclaiming my time. I asked you for evidence. 
You quoted Walesa and others, saying that it had no effect 
there. I am asking you, are there instances where in isolating 
the regime has had the opposite effect that you can point to?
    I would suggest that you can't. Mr. Sosa will make a 
compelling argument that engaging the Cubans however, allowing 
travel and other means, will foster democracy. You argue that 
it does not. And I would suggest that you have no more evidence 
on your side than he has on his.
    Ambassador Cason. My evidence is history, and that there 
have been millions and millions of people from all over the 
world, democrats, who have gone for over 50 years to Cuba.
    Mr. Flake. Excuse me, but you are making the reverse 
argument. Tell me a time where we have had a travel ban that 
has actually fostered democracy in another country, and just 
answer that question. Have we and can we point to an example of 
that?
    Ambassador Cason. Well, I don't think we have a travel ban 
on Cuba. I think for a long period of time large numbers of 
people have been able to go.
    Mr. Flake. As we have already discovered.
    Ambassador Cason. And hundreds of thousands of Cuban 
Americans can go. My point is that they have not brought any 
change, political change, of the sort that people are arguing 
here should result from that.
    Mr. Flake. Thank you. Reclaiming my time, it has been 
mentioned as well that this legislation, or what we are trying 
to do here, is to encourage tourism, or to promote tourism, or 
to promote or encourage travel.
    Mr. Peters, you have studied the legislation. Does this 
legislation, for example, contain a grant program for travel 
agents to promote travel to Cuba, or does this legislation 
simply say you are allowed. We will give you the freedom that 
we give you in every other area?
    Mr. Peters. It is the latter. The legislation that you are 
referring to ends the prohibition. It does not push anybody to 
go anywhere, and no, it does not have any United States 
Government funds that promote tourism or give grants to anybody 
with regard to travel.
    Mr. Flake. So nobody under this legislation is compelled to 
do anything. It is simply granting them the freedom should they 
wish to travel?
    Mr. Peters. That is correct.
    Mr. Flake. Thank you. I yield back.
    Chairman Berman. The time of the gentleman has expired, and 
the gentleman from New Jersey, Mr. Sires, is recognized for 5 
minutes.
    Mr. Sires. Thank you, Mr. Chairman. I will just speak a 
little bit for the 34 million people that speak Spanish. I have 
to tell you that I was a Spanish teacher for 10 years. My 
brother obviously is Cuban, my younger brother, and you ask 
them if they speak Spanish, and they will tell you yes.
    You talk to them, and it is an embarrassment, and they are 
my brothers. I taught in a school that was 93 percent Hispanic. 
You will ask those students if they spoke Spanish, and they 
will tell you--90 percent will say yes.
    So I am not agreeing with any of you, but this notion that 
34 million people speak Spanish, yes, they say it is their 
first language because they go home and say que pasa, how are 
you. That is fine.
    But my question comes to this. I am hard-pressed to think 
that if we lift the travel ban that is going to help the Cuban 
people when the government controls every single aspect, from 
who gets to rent a room, from who gets to go where, from the 
people that are coming to the island, because I assumed that 
they are going to curtail if there is a whole mass of people 
going to the island.
    So for me to accept the fact that this is somehow helping 
in any way, I only see them helping the government. So does 
anybody want to take a shot at that? I am sure that you all do.
    Mr. Sosa. Well, first, a couple of things. First of all, 
the 34.5 million comes from the United States Census Bureau, 
and frankly any one of us----
    Mr. Sires. Sir, excuse me, I am reclaiming my time. The 
Census Bureau says check if you speak Spanish. You ask my 
brother if he speaks Spanish, and he will say yes. You ask my 
younger brother who was born here if he speaks Spanish, and it 
is an embarrassment, and he will say yes. So, go ahead.
    Mr. Sosa. I don't know your family, but anybody who has----
    Mr. Sires. I was a teacher for 10 years in a Hispanic 
district, sir, okay?
    Mr. Sosa. Anybody who----
    Mr. Sires. In a Hispanic district where 93 percent of the 
students were Hispanics. Thank you.
    Mr. Sosa. Sir, anybody who has traveled around the United 
States and then to a major American city, knows that there is a 
tremendous number or people who speak Spanish. So we need to 
move on from that.
    Mr. Sires. I don't disagree with that. I mean, you are 
making it sound like everyone is such a fluent Spanish speaker, 
but never mind. There are so many other questions.
    Mr. Sosa. There are a lot of us. Okay. So your other point 
was would it help America if the Cuban people----
    Mr. Sires. How is it going to trickle down to the Cuban 
people?
    Mr. Sosa. Well, first of all, it is not true that every 
person that travels from the United States to Cuba is somehow 
followed around with some minder. I have been to Cuba several 
times, and I have wondered all over the island.
    I am sure that there was somebody looking one way or the 
other at what I am doing, but it did not stop me from talking 
to people. I talked to people from all walks of life in Cuba. 
They can't, as much as they want to control, you cannot control 
of hundreds of thousands of Americans arriving tomorrow in 
Cuba. It is not possible.
    Mr. Sires. Well, let me tell you a story. I have a friend 
of mine named Alex Duran from Colombia, who went to Cuba, 
because he figured that sooner or later they are going to do 
something. He went to Cuba, and when he got to Cuba, he was 
actually called in to be questioned on what he was doing there, 
and he is not even Cuban.
    So for you to say that you are not followed--I mean, every 
single thing that I get, in every conversation that I get, 
people are followed. People are tracked. I still have aunts and 
I still have cousins in Cuba, and when we get a chance through 
the family, this is the information that I get.
    And so I am just hard-pressed--look, if tomorrow the people 
of Cuba were going to benefit, I might think twice about my 
position. I just don't think it is going to trickle down to the 
Cuban people, and that is my argument against this.
    Mr. Peters. Congressman, I will take a shot at this. It has 
not trickled down. I would encourage you to go on the internet 
and Google the words Cuba passa particula, and look at the 
private homes that people rent. Look at the people who are 
renting. These are little businesses.
    Mr. Sires. Mr. Peters, who gives them the permission to 
rent the homes?
    Mr. Peters. Well, they are licensed by the government.
    Mr. Sires. The government.
    Mr. Peters. Excuse me?
    Mr. Sires. The government gives them the permission.
    Mr. Peters. The government, and they have to get a license 
to do it. That is right, and they pay taxes.
    Mr. Sires. And that is my argument.
    Mr. Peters. I am not in favor of licenses. I am not in 
favor of taxes either, but it is not unique in Cuba that people 
have to get a license or pay taxes.
    Mr. Sires. Yes, but my argument is----
    Mr. Peters. You are asking me whether the money trickles to 
people. Those people make good money. They employ people.
    Mr. Sires. Now do you think that any of the dissidents will 
ever be able to get a license to rent to somebody?
    Mr. Peters. Excuse me?
    Mr. Sires. Do you think that a dissident will ever get a 
license to rent their rooms?
    Mr. Peters. Well, look, I am not in favor of a restriction 
of that nature, but you are asking does it trickle down to 
people? It absolutely does. All over the island. And there are 
artists that sell to foreigners, and one that I know of is an 
Angelica Christian who employs five people because he makes so 
much money doing it.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Peters. It does trickle down.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Florida, Mr. Mack, is recognized for 5 minutes.
    Mr. Mack. Thank you, Mr. Chairman, and Mr. Chairman, I have 
been listening to the discussion today from both sides, and I 
think I have found the silver lining in today's hearing, and 
that is that this committee should move swiftly to apply the 
same restrictions that we have on Cuba, to Iran, Sudan, and 
Syria, all of which are on the State Sponsor of Terrorism List. 
And at some point we would be willing to offer a resolution on 
this.
    Chairman Berman. Would the gentleman yield?
    Mr. Mack. Yes.
    Chairman Berman. You know that you would be trying to 
repeal my provision, and so would I take it personally.
    Mr. Mack. Duly noted. Mr. Sosa, if I may, in listening to 
your testimony, I find it somewhat shameful that you would 
interject in today's debate racial and ethnic politics by 
arguing that only if one is from a particular race or ethnicity 
can one relate to the Cuban people or discuss democracy, 
freedom, and human rights.
    My question is what about the thousands of tourists from 
Spain and Mexico? Have these Spanish speaking tourists failed? 
And another question is that my good friend, the ranking 
member, Ileana Ros<greek-l>= deg.-Lehtinen, is she a better 
ambassador of freedom than I am?
    Again, it is just something about your testimony that I 
question why you would bring up race and ethnicity in this.
    Mr. Sosa. Okay. First of all, Spain was a former colonial 
master of Cuba. So that has some historical effects on the 
people of Cuba. There is no question that the people of Cuba 
more closely resemble the people of the United States, the 
population in general, than they do the people of Canada.
    That is just a fact. I am not interjecting anything. I 
mean, that is just a fact of life, and that does mean in my 
opinion that there is a much closer tie between the people of 
Cuba and the people of Canada, and certainly Luxembourg, or 
France, or Germany, or any of these other countries.
    Mr. Mack. Well, all right. Again, listening to your 
testimony, the other thing I heard, and which I thought was 
outrageous, was that somehow it was the American people's fault 
for the brutal regime of the Castro brothers.
    That somehow the restrictions that we have on Cuba, somehow 
it is our fault that the Castro brothers continue to be a 
brutal regime, and maybe you and I can sit down and talk at 
some other time that I can understand. Okay. We don't have to 
talk. That is fine.
    Mr. Sosa. I never said that.
    Mr. Mack. But what I heard you say is that if we drop the 
restricts, then no longer could the Castro brothers use United 
States policy, and that somehow United States policy is to 
blame here, and we hear this a lot. I mean, it is just not the 
case, and I think you are misguided on that.
    Mr. Sosa. Well, I never said it.
    Mr. Mack. My question is to the Ambassador. Going back to 
this idea of people traveling to Cuba, and would this money 
trickle down to Cubans. I would like for you to--and I have 
also listened to your testimony and read your testimony. If you 
would talk a little bit about that, because in my opinion it is 
not going to help one bit.
    Ambassador Cason. Well, one thing is whether it is going to 
help, and another thing is if it trickles down. I think very 
little trickles down. Sure, they have paladars that can have 12 
people seated at them, and a lot of them owned by regime people 
behind the scenes.
    And sure there are some private rooms, but the vast 
majority of tourists, of those 15 million tourists, don't go 
there. They go way out in areas where there are no Cubans, 
where there is no tipping, no chance to buy things, art work 
and that sort of stuff.
    Sure, some trickles down, but the idea that somehow this is 
going to bring prosperity to the average Cuban is just bunk, 
and there is no evidence again that tourism by all these people 
from other parts of the world that do speak Spanish, and that 
do engage if they find a Cuban to engage with, has many any 
impact whatsoever on the system. So that is what I have been 
arguing.
    Mr. Mack. So then all this money would then just stay in 
the hands of the Castro brothers.
    Ambassador Cason. Sure, they own the bars, and the cigar 
shops, and the rum. All of that belongs to the Cuban State. 
There is very little independent activity. There are some 
people, a smaller group, every month that try to do something 
independent, but they are rounded up and put in jail for 5 
years for dangerousness.
    So does something trickle down? Yes, something does, but it 
is not going to bring democracy or anything to Cuba, or to help 
the average Cuban.
    Mr. Mack. Thank you.
    Chairman Berman. The time of the gentleman has expired. The 
gentlelady from California, Ms. Woolsey, is recognized for 5 
minutes.
    Mr. Woolsey. Thank you, Mr. Chairman. You know, sitting 
here, it sounds like those who oppose travel to Cuba are 
singing an old song. I feel like I am listening to an old 
record, something that we have all heard before, and it is 
fairly comfortable because we can sing along.
    Except that it does not fit the 21st century, and that is 
my opinion that it does not fit. Could you tell me, General, or 
Ms. Antunez, or Mr. Peters, do you know what kind of a--is 
there a difference of opinion between first generation Cuban-
Americans, and first generation Cubans, and second generations? 
Is it changing? Are we missing the boat here by not paying 
attention to other opinions?
    Mr. Peters. Congresswoman, I think the polling data that 
various polling firms have done over the years is very clear in 
the Cuban-American community. There was a recent poll that 
showed that 59 percent of Cuba-Americans support ending travel 
restrictions on all Americans, so that we could all travel 
there freely.
    And I think internally when you start to look inside those 
polls, you see that the change is driven, the change toward 
favoring policies of engagement is driven by greater support 
for that position among younger Cuban-Americans, and Cuban-
Americans who have arrived here more recently.
    Mr. Woolsey. Respond.
    General McCaffrey. I would not want to say that I am an 
expert on the Cuban-American community. I am in and out of 
Miami all the time, but my guess is that our current policy 
toward Cuba is not supported by the United States population.
    It has caused us to become isolated in the international 
community. It is painful to the Cuban people, and the Cuban mia 
cabanos, the new, younger generation, does not support it 
either. So I think those that espouse continuing the ban on 
travel are an isolated group who are rooted in the past.
    Castro is locked in 1959, and the United States Government 
is located in 1961. We need to move on. Engage the Cuban 
people, open diplomatic representation, and try and move them 
back into the community of nations.
    Mr. Woolsey. Thank you. Let us move on to--I am going to 
change the subject, and we have our wonderful witness that we 
are looking at on the video. Ms. Leiva, let us talk about 
agriculture. Let us talk about farmers. Let us talk about what 
kind of food products the Cubans would purchase if we would 
open up our trade relations, the United States-Cuba trade 
relations.
    Ms. Leiva. Well, you can imagine that the Cuban Government 
imports around 80 percent of the food that we consume in Cuba, 
and mostly from the United States. Right now, this year, the 
commerce, the trade, dropped by 36 percent altogether. Why? 
Because they don't have enough money to buy.
    That means that more money in Cuba would mean that they 
would be able to buy more food and more goods that they don't 
have. The commerce is not producing, and it is incredible how 
people are lacking everything they need, and each day it is 
more of a difficult situation.
    But if people could rent, and people could work, and sell 
to privately, and if many tourists would come, and many people 
from anywhere, the government would not be able to have all the 
capacities in hotels or restaurants, and this would move the 
people's economy, and they would know that this because the 
Cuban Government is so wonderful that they have given the 
possibilities as the propaganda of the government is, but that 
is because has changed the balance, because Americans are 
coming, and visitors do not intend to bring down the government 
in any place.
    But by getting close to people and by talking, they can let 
everyone know what their experiences are, and the tax people 
open their minds, the people feel free, and of course, if there 
is an improvement economically, that would change a lot for the 
common people in Cuba.
    I think we are talking about or some people are talking 
with all my respect about a Cuba that does not exist, and is a 
society that isn't the one that we live in. I know that they do 
it for the best, and they would like freedom immediately, 
respect for human rights, and that there would be no political 
prisoners, or dissidents, and that we would govern our country 
as a democracy. But----
    Mr. Woolsey. Well, thank you so much for your patience.
    Ms. Leiva. But it is not possible that way.
    Chairman Berman. Ms. Leiva, unfortunately, the 5 minutes 
has expired, and so we have to cut this off and go on to the 
gentleman from California, Mr. Royce, who is recognized for 5 
minutes.
    Mr. Royce. Thank you, Mr. Chairman. I had a question for 
Ambassador Cason, and it goes to the testimony that you gave. 
You mentioned the training that Cuban hotel employees receive. 
Can you expand on that?
    Ambassador Cason. Yes, the people that get to work in the 
hotels are a minority elite. They have to pass an allegiance 
test. These jobs are very important jobs that people have, in a 
society where very few people have a chance to have a steady 
job.
    The people that are at those hotels, and the people that 
take tourists around are trained to answer the questions that 
tourists will ask of them. They are trained to give the 
regime's answers. They are not going to risk their livelihood 
by answering questions honestly, and so tourists are taken into 
Potemkin villages.
    And again very few of those tourists that have been going 
over the last 15 years to Cuba are staying in the urban areas 
in these little family run places. They are staying in hotels 
where ordinary Cubans are not allowed to come in, and couldn't 
come in, and the whole environment is controlled, and the 
people that they deal with are trained people, and many of them 
members of the Communist Party.
    Mr. Royce. The reason that this is interesting to me is 
because yesterday morning, with our Human Rights Commission 
meeting here, we took testimony from a Mr. Kim, a defector from 
North Korea, who explained how the system works in North Korea, 
and exactly how Kim Jong-il extracts the wealth from this kind 
of activity.
    It is difficult to find one-for-one examples in foreign 
policy, but the idea of opening up Cuba for United States 
tourism really reminds me of those that have advocated for 
Mount Kumgang in North Korea, the Kumgang Mountain Resort.
    And this is of course the ideas like capitalism, I guess, 
will be slowly introduced to North Koreans, and the wages 
garnished by workers there at the resort will trickle down. But 
here is what in fact what happened.
    In fact what happens is that Communist Party members, who 
are the sons and daughters of the elite, are sent to work 
there. They are adamantly in support of the regime, and they 
don't talk to people who go in about any of these ideas anyway.
    So they are kept at arms length, and so the reality is that 
you don't reach the population. What you do is you pay money to 
bolster the intelligence apparatus, or the state, or in the 
case of North Korea, it was their weapons program.
    And I think there is an awful lot of wishful thinking. I 
think that Kim Jong-il, like Castro, would never do anything to 
threaten his grip on power, but he does not mind running that 
hotel out there because the workers at Kumgang are so highly 
screened, and they are party members, and they don't get paid.
    The wages go to the state, and then the state feeds the 
Communist Party workers. So the vast majority of the money made 
at this resort is pocketed by the regime for exactly the types 
of purposes that you have called attention to.
    You also mentioned that the regime believes that it can 
control tourism. Explain that to us.
    Ambassador Cason. The regime has controlled tourism. They 
are not about to let their survival be at stake by letting the 
place be flooded by Americans. There are only a certain number 
of hotel rooms. Most of the time they are booked solid.
    So there is no room for millions of extra Americans to come 
there. You would have to kick somebody else out of the hotels, 
or raise the prices or something.
    Mr. Royce. Well, do you think, or the bottom line for the 
regime, the Castro regime has proven very adept at warding off 
reform for a long time. Do you think that regime would make any 
reforms that would somehow threaten its grip on power?
    Ambassador Cason. Absolutely not.
    Mr. Royce. Or do you think that it intends to use it for 
more hard currency so it can continue to expand its 
intelligence apparatus?
    Ambassador Cason. That regime is not going to do anything 
that would undermine its political control, especially these 
80-year-olds who know that they don't have the support of the 
young people, who don't believe that the revolution is going to 
provide for their future. They just don't believe in the 
system.
    So that regime is not about to allow a large number of 
American tourists to come and wander around among the Cubans in 
order to undermine the system. It is just not going to happen. 
They have shown that they control it, and they will, as their 
regime's future is at stake.
    Mr. Royce. Have the years of European travel to the island 
put a dent in the regime's control in your opinion?
    Ambassador Cason. Absolutely not. There is not a sign of 
political reform that has come from any of those 15 million 
tourists.
    Mr. Royce. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. The 
gentlelady from California, Ms. Lee, is recognized for 5 
minutes.
    Ms. Lee. Thank you, Mr. Chairman. Let me welcome all of our 
guests here, and witnesses today, and I especially want to 
greet Ms. Antunez. Thank you for being here. Let me just first 
say to my colleague, Mr. Mack, I want to just mention one point 
to you as it relates to race.
    Race is a factor in so many issues, both here and in Cuba. 
Actually, Ms. Antunez also pointed to the fact--and let me read 
you this. She says I know the regime's contempt for Cuban 
people and how they show no mercy to those of us who are Black. 
So she also raised the issue of race, which is a good thing to 
do.
    Now, I want to just say to you, Ms. Antunez, that I share 
many of your concerns about the lives of Afro-Cubans, and I 
understand it, because as an African-American myself, I 
remember the days of the United States Government's Jim Crow 
laws, where African-Americans could not vote.
    My father was a Lieutenant Colonel in the United States 
Army, and I remember very vividly being turned away at 
restaurants and movie theaters. He had his United States Army 
uniform on, and we were told that we were not allowed because 
we were Black.
    I also remember when I started school that I could not go 
to public school because I was Black. I also remember, and this 
is in my lifetime, when Black people were lynched, when they 
were hung. I remember these things very well.
    This was not long ago, and we are still here in my own 
country dealing with discrimination and inequalities, often 
times with race as part of the reason for these inequalities. 
So I have experienced a lot, and I understand what you are 
trying to say.
    But yet I don't remember many countries at all refusing 
their citizens the right to travel to the United States, or to 
engage in an embargo against my country because of these gross 
human rights violations that I have experienced, and many of my 
colleagues in the African-American community.
    I believe that African-Americans can demonstrate to Afro-
Cubans how African-Americans have challenged our Government for 
freedom and for equality. The embargo and the travel ban have 
kept us, has put this barrier up, and has kept us from helping 
you, and for sharing with you our struggles, and what we have 
had to do to fight just for the right to be part of this 
country.
    So why wouldn't ending the travel ban be in the best 
interests of Afro-Cubans?
    Ms. Antunez. I am very happy that this topic has come up 
and that you have addressed it, because my own people, and my 
own family, are living through some of the same kinds of things 
that you have just cited.
    And I am thinking specifically of my brother, who, because 
he is Black and opposes the regime in our country, they have 
even sicced dogs on him, and it is not something that I am jus 
saying. He bears the scars on his body.
    And I am also thinking of my sister-in-law, who was beaten 
by the political police on the streets of Cuba, and addressed 
as Black, and with other epitaphs in an obscene manner merely 
because she was defending the rights of one of her fellow 
citizens.
    Chairman Berman. I am going to ask for unanimous consent 
for an additional minute for the time taken.
    Ms. Ros-Lehtinen. And, Mr. Chairman, I just want to say 
that you are a wonderful translator, but I believe that the 
first part of her sentence was saying that I don't have to rely 
on memories and on recollections. It is something that I live 
with every day.
    Ms. Lee. May I reclaim my time, Mr. Chairman?
    Chairman Berman. It is your time.
    Ms. Lee. This is something that we continue to live with 
every day also, Congresswoman Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. I don't doubt it, Ms. Lee.
    Ms. Lee. So just understand that the point is that I don't 
remember, and I don't see many countries not allowing their 
citizens the right to travel to America because we still have 
so many violations of human rights here in our own country.
    [Applause.]
    Ms. Ros-Lehtinen. I just want to be--I am not part of the 
blame America first crowd. I wanted to just clarify more 
accurately what she had said.
    Chairman Berman. All right. The time of the gentlelady has 
expired. I will give the translator time to translate the 
answer.
    Ms. Antunez. Thank you. I am speaking about the facts that 
I have gleaned from my own life experiences, and I would like 
to say that I am sure that American tourism would actually be 
fatal for us, and the space that we have won through our non-
violent activism.
    Not because I don't want something good for my country, but 
because I don't need to go on the internet to know the effects 
of repression that would come about as a consequence of this 
policy.
    Chairman Berman. The time of the gentlelady has expired. 
The gentleman from New Jersey, Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. Let me just 
point out that Congresswoman Lee, among others, were permitted 
to visit Cuba last winter, and meet with the Castro brothers, 
and some in her delegation were absolutely effusive in their 
praise for those two individuals.
    I know that Berta Antunez tried to give you a letter, and I 
am not sure, Ms. Lee, if you actually raised the case of 
Antunez, or whether or not you tried to visit him. He was on a 
hunger strike at the time, a hunger strike on behalf of human 
rights, and to the best of my knowledge, you did not visit with 
him while you were there.
    Ms. Lee. Do you want to yield?
    Mr. Smith. I will yield at the end. I, along with Frank 
Wolf, have tried for years to get into Cuba to visit with 
political prisoners and to visit with people like the great 
Antunez. We have been turned down every time because Frank Wolf 
and I want to raise prisoners of conscience.
    We want to go to the prisons. We have been in gulags in 
China, gulags in Indonesia, gulags in the Soviet Union, 
including the infamous Perm-35, which is where Natan Sharanski 
had spent his time.
    In the late 1980s, Armando Valladeras and I were in Geneva. 
He actually got the United Nations Human Rights Commission, 
very often a very weak organization, to focus and to bring 
scrutiny to the prisoners in the gulags.
    They sent a fact finding team. Since then the International 
Committee for the Red Cross has been denied. There is a travel 
ban on the ICRC going to Cuba, and going to the prisons. There 
is a travel ban on the Human Rights Rapporteur from the United 
Nations--that mandate has ended, but there was a travel ban 
preventing his investigation.
    I would ask General McCaffrey, have you ever asked Castro 
to permit the ICRC to visit Cuban political prisoners? What 
specific individuals have you raised with Fidel Castro and 
others in the government, and have you asked Castro to let you 
visit those prisoners of conscience yourself?
    I don't have access. Those of us who raise these issues 
can't even get in the door, and you certainly, I think, do an 
enormous amount of good on that. Yesterday, Colonel Fuentes, 
the superintendent of the New Jersey State Police, said every 
law enforcement officer in New Jersey wants cop killer Joanne 
Chesimard returned to prison in New Jersey.
    She brutally gunned down an officer in East Brunswick on 
the New Jersey Turnpike, and then made her way to Cuba, where 
she lives in the lap of luxury. I would also ask you finally 
before my time runs out, I mentioned earlier that in 2001, I 
got legislation passed in the House and it later died in the 
Senate as so many things related to human rights do over there, 
that called for two conditions, modest, minimalist conditions, 
for lifting the travel ban.
    First, release the political prisoners, because they are 
being tortured as we meet here today, and secondly, allow us to 
get back the almost 80 individuals who have committed felons, 
like Joanne Chesimard, and now are living in Cuba in a safe 
harbor. So, General, if you could.
    Colonel Fuentes is the New Jersey State Police officer who 
made a strong and a compelling case yesterday as he and other 
law enforcement people do, and have you raised that case?
    General McCaffrey. Well, let me say that I think you ought 
to be very proud of your work in this area, and I certainly 
endorse entirely your viewpoints. I think the notion that there 
is a totalitarian government in Cuba, and great repression, and 
there is a lack of freedom on unionization, assembly, freedom 
of speech, is unarguable.
    And I personally have raised with both Fidel--and not for 2 
hours. I actually had 7 hours with him--that this is a major 
point of United States foreign policy, and to try and reduce 
the perceptions throughout the global community that there are 
repressive totalitarian regimes.
    And I have also raised the same point with the Cuban 
Ambassador, and their intrasection, that that is probably the 
easiest thing they could do is drop their repressive 
imprisonment of these dissidents. So I share your viewpoints.
    Mr. Smith. General, would you help me and Frank Wolf get 
into Cuba?
    General McCaffrey. If there is any modest contributions I 
can make, and I have great admiration for Frank Wolf. He is one 
of the finest men that I have seen in public life.
    Mr. Smith. We would like to go as early as December and go 
to the prisons.
    General McCaffrey. Well, I would not think that I have 
great leverage, but anything that I can do is at your service.
    Mr. Smith. Would you, Mr. Peters, help us get in?
    Mr. Peters. Well, I don't think I have any particular 
leverage either, but I am happy to work with you. In fact, your 
staff contacted me some months ago, and I told them that I was 
happy to work with them, and I am happy to work with you.
    With regard to the--and I am from New Jersey, too, as you 
know. I understand what you are saying about Joanne Chesimard, 
and of course she should be returned. I don't think it is a 
very simple process.
    Mr. Smith. Have you raised it with government officials?
    Mr. Peters. No, I have not raised that case with government 
officials.
    Mr. Smith. Why not?
    Mr. Peters. Excuse me?
    Mr. Smith. Why not?
    Mr. Peters. Well, I will tell you what I have done. I will 
tell you that I have raised the issue of human rights with them 
in the past, and every single time that I have gone with a 
Congressional congregation, I am proud to say that 
Congressional group has raised the issue of human rights, 
including with specific names.
    Chairman Berman. The time of the gentleman has expired, and 
the gentleman from American Samoa, Mr. Faleomavaega, is 
recognized for 5 minutes, and that will probably be the last 
person to be recognized.
    And let me just interject here that if anyone else is 
prepared to come back right after these two votes, we will 
continue the hearing, assuming our witnesses don't pass out. 
So, (1) whoever wants to come back, and (2)<greek-l> and deg.--
well, we will come back. Can the witnesses stay?
    Ambassador Cason. I have a plane that leaves at 3 o'clock.
    Chairman Berman. The Ambassador can't stay. Mr. Sosa can 
stay.
    General McCaffrey. I have to be at a meeting at 2 o'clock.
    Chairman Berman. The General can't stay. Mr. Peters can 
stay. Ms. Antunez, can you stay? Ms. Leiva, can you spend 
another 45 minutes so we can finish the hearing?
    All right. The gentleman from American Samoa is recognized 
for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I thank the 
witnesses for their most eloquent statements. I think at the 
height of the Cold War, when we talk about the Cuban missile 
crisis, the Bay of Pigs, this has become not only an emotional 
issue for our country, but at that time as national security 
seemed to be the number one issue in the minds of our leaders 
on top of the Cuban missile crisis.
    And I would like to ask General McCaffrey: You had 
mentioned that Cuba is no longer really a threat to our 
national security given your wealth of experience, not only as 
a military flag officer, but certainly someone who has worked 
on national security issues. Can you elaborate on that a little 
more?
    General McCaffrey. I apologize, but with national security 
issues, we have got a lot of them, and we certainly have a 
hostile Cuban Government, with an internally repressive regime. 
In the past, they had a history of confronting United States 
foreign policy issues.
    Castro has clearly allied himself with Chavez right now, 
and is causing many problems as he could, I am sure, in 
Venezuela. Now having said that, our national security concerns 
oriented around a dozen different threats, and some of them are 
hugely important to us, and they don't include Cuba.
    So my own view is that the reason we have to worry about 
Cuba is that I fear when Castro passes away, which I am 
confident he will, and that we see the unraveling of this 
repressive regime, we are going to end up with millions of 
Cubans seeking freedom, and fleeing the island.
    So I actually look at the National Guard, who I will be 
talking to tomorrow night, and others, as having a huge 
challenge in the coming years, and how do we deal with a 
humanitarian disaster if we are not engaged with the Cubans 
now.
    I want to know who the 45-year-olds are who are going to 
run the government, and I want to see us engage militarily, 
politically, diplomatically, and intelligence services, in 
trying to bring these people out of their isolation.
    Mr. Faleomavaega. I know that in my travel to Cuba, I had 
to go through Cancun to get some kind of special visa in order 
to get to Havana. I want to ask Mr. Peters the question about 
the quote that he made here and the very interesting statement 
that he made, that investors from all over the world operate 
joint ventures in Cuba.
    Spanish companies are making an effort to drill oil in 
Cuban territorial waters. Venezuela pays Cuba over $1 billion 
per year for services of Cuban doctors and other workers. Iran 
extended Cuba $445 million in credits in November of this year.
    Brazil extended a $1-billion line of credit last year. 
Funds are being used for port and road developments, and other 
projects. China has also extended a $600-million line of credit 
to Cuba in September of this year, including $260 million for 
grain purchases.
    That is a very interesting comment here in terms of the 
economic situation and the economic sanctions. In your opinion 
do you think that the real basis of our involvement in Cuba, 
first, as it was in the early part of the last 50 years, was 
national security?
    Now as you look at the economic conditions, do you really 
think that this really has the basis of how things may change 
in the future if Castro should depart from this earth in the 
coming period?
    Mr. Peters. Congressman, the point that I was making in 
that passage was that we often think that because we have 
sanctions against Cuba that the Cuban economy is on the brink, 
or that we are squeezing them somehow, and that is not the 
case.
    The economic situation there is not good, but as all those 
facts indicated, and as others do, they are not isolated. They 
are engaged with the rest of the world, and whether we like it 
or not, that economy is not teetering.
    And more importantly from the point of view of the purpose 
of our sanctions, our sanctions have never had the effect, and 
the economic troubles that they have experienced, and they have 
been very severe, and they seem more severe now than they were 
even last year, have never put the power of the government on 
the line.
    And so there is no politically decisive impact in our 
sanctions. It doesn't make a difference between the Communist 
government surviving or the Communist government not surviving.
    Mr. Faleomavaega. Unfortunately, my time is short, and 
there is not enough time to ask some more questions. Thank you, 
Mr. Chairman.
    Chairman Berman. The gentlemen's time has expired. We have 
two votes, which means that this will be much quicker than the 
last time. We will go down there and we will vote, and we will 
vote a second time right away, and be back in about 15 minutes 
maximum, I think.
    And if you can stay, great, any of you, but we hope as many 
of you as can will, and hopefully the members that want to ask 
questions, we will be back here right away, and if no one is 
here, we will just adjourn it. So with that the committee is 
recessed.
    [Recess.]
    Chairman Berman. Okay. We are smaller, but more robust. The 
gentlemen from New York, Mr. Meeks, is recognized for 5 
minutes.
    Mr. Meeks. Thank you, Mr. Chairman, and thank you for 
staying. This has been a crazy and busy day, and I know that 
this issue is a very emotional issue, and unfortunately when 
emotions are involved, sometimes logic stops.
    And so I just want to say that it has been a long time 
since we have had a different policy in Cuba, and when I think 
about the whole situation, one of the reasons why people talk 
about national security, et cetera, it was initially the 
alliance between Cuba and Russia, and yet we never put a ban on 
traveling to Russia, and we always had conversation with the 
Russian Government.
    And now we have even are working with them in the G-20 and 
other places, and it seems as though when Cuba was a threat to 
the United States was only because of Russia, and the missile 
crisis, and not because of Cuba in and of itself.
    And so I don't see where Cuba is a threat to the United 
States of America at all at this particular point. That being 
said, let me just ask Ms. Antunez that recently the President 
of the United States allowed or ended all restrictions on 
travel to Cuba by Cuban-Americans.
    And I was wondering whether or not you believe that such 
travel should be prohibited, or whether Cubans should be free 
to go to Cuba?
    [The following testimony was delivered through an 
interpreter.]
    Ms. Antunez. I am sorry, could you repeat the last part of 
your question?
    Mr. Meeks. Whether or not such travel by Cubans to Cuba, 
should that be prohibited, or should Cubans to Cuba be allowed? 
Cuban-Americans.
    Ms. Antunez. In the first place, ending tourism or any 
travel, anything that will bring additional means to the Cuban 
regime and continuing its repression, and strengthening itself, 
and keeping its hold in power, anything that would do that is 
not convenient for the Cuban people.
    Mr. Meeks. No, that is not my question. My question do you 
think it is okay for Cuban-Americans to be able to go visit 
Cuba?
    Ms. Antunez. I would like to say that I think at this time 
that it is correct to maintain the policy that the United 
States Government has maintained all these years of allowing 
the real Cuban people who are suffering to win space for 
themselves through non-violent activism, and that we would lose 
if an uninhibited flow of people bearing resources for the 
regime were to come into Cuba.
    Mr. Meeks. That is not answering my question. Maybe I 
should move on, because the question was a simple question of 
whether or not Cubans should be visiting--Cuban-Americans 
should be visiting Cuba, and where there is family contact, and 
there are family ties, and that is the essence of my question. 
It is not a complicated question at all.
    Ms. Antunez. No.
    Mr. Meeks. That is that. Thank you. Finally.
    Chairman Berman. You have 13 seconds.
    Mr. Meeks. Well, let me end with this. I have 13 seconds. I 
wish I had time to ask questions. I will say this that in the 
words of a President----
    Translator. She did not understand your question, 
Congressman. I am sorry.
    Mr. Meeks. I don't have much time. I am just going to end, 
but in the words of a President that I didn't agree much with, 
a President said that civilized people everywhere have a stake 
in keeping contact, communications, and creativity as broad, 
meek, and free as possible. The way that governments can best 
promote contacts among people is by not standing in their way. 
That President was Ronald Reagan.
    Chairman Berman. The time of the gentleman has expired, and 
the gentleman from Indiana, Mr. Burton, is recognized for 5 
minutes.
    Mr. Burton. Thank you, Mr. Chairman. Thee is a number of 
reasons why I am opposed to this move, and rather than ask a 
bunch of questions, because some of the questions that I wanted 
to address were to General McCaffrey and Ambassador Cason.
    But when an American company or hotel down there pays their 
employees, the money goes through the government, and if they 
make $400 a month, that is reduced by 26 times, because the 
currency they have down there is worth one-twenty-sixth of a 
dollar.
    And these people can't go and swim in the pools, or run 
around these hotels, and have the freedom that you would expect 
them to have because they are under the heel, the boot, of the 
Castro regime.
    Castro is working with Chavez, and Chavez is supplying 
money now, and Chavez wants to revolutionize Central and South 
America, and he is one of the compatriots now with the Castro 
brothers. And they want to turn that into a Communist regime, 
and reverse everything that Ronald Reagan was able to get 
accomplished when he was President.
    If you drive a cab, if you work in a gas station, or a 
restaurant, you are pre-vetted, and once again, you get those 
jobs only after the pre-vetted has taken place, and you get 
about one-twenty-sixth of what you earn if you are paid in 
American dollars.
    There is no limitation that I know of on humanitarian aid 
or food. I have heard several of the people testify today that 
they don't get enough food, and that we are stopping it. I have 
talked to a supermarket chain in my district, and they were 
telling me how they are selling food to Cuba on a regular 
basis, and there is no restricts.
    And humanitarian aid I know is not being restricted. One of 
the things that the KGB taught Castro early on in his 
administration down there, if you want to call it that, was 
that the way to keep control of the people is to have somebody 
that is a spy, or whatever you want to call it, in about every 
three or four blocks, a block captain.
    And if somebody complains about what is going on, they 
report it to the authorities, and then of course the person 
that is accused of that suffers the end result. And you talk 
about travel to Cuba changing things.
    As I recall, and I was talking to Ms. Ileana Ros-Lehtinen, 
our ranking Republican, that during the Carter administration 
there were no restrictions whatsoever, and the repression under 
the Castro regime was just as severe as it is today.
    People were thrown into the gulags, and I think Armando 
Valladeras was through into jail at that particular time, and I 
wish everybody who thinks we ought to start working with the 
Castro brothers down there would read his book.
    It is called Against All Hope, and it is a clear depiction 
of what people go through if they are a person that disagrees 
with the administration down there, and is thrown into the 
gulags. It is just horrible what they have to go through.
    I was going to ask General McCaffrey, as he was asked by 
Mr. Smith, did you ever try to get into the prisons, and Mr. 
McCaffrey never answered that question, and I think the 
question was also asked of you, and after I finish my remarks, 
I would like for you to answer that.
    Have you ever asked to go in and see political prisons, and 
if so, were you allowed to go in and see the political 
prisoners, and if you didn't ask to go in to see them, I would 
like to know why you didn't, because that is one of the major 
things that we have been concerned about for a long time.
    Cuba is still by the State Department considered a 
terrorist State, and I think we ought to take that into 
consideration as well until there is a reversal of that, and 
with that, if you would like to answer that question, I would 
appreciate it.
    Mr. Peters. Thank you, Mr. Burton. If there is time, I 
would respond to what you said about the hotels and the taxi 
drivers, because I don't think that is quite accurate, and so 
there isn't.
    Mr. Burton. Just the question that I asked. That is the one 
that I want to know. Did you ask about the prisoners?
    Mr. Peters. No, I have never asked to go into prisons to 
visit political prisoners. I have never done that. I have 
advocated on behalf of Prisoners of Conscience. I have visited 
former Prisoners of Conscience, and I have visited dissidents, 
and----
    Mr. Burton. Well, real quickly, why didn't you ask to go 
and see them?
    Mr. Peters. And every single time that I have gone with a 
Congressional delegation, I am proud to say that delegation has 
advocated in favor of human rights, including with specific 
names.
    Mr. Burton. Why didn't you ask to go in and see the 
political prisoners?
    Mr. Burton. I have talked to dissidents on many, many 
occasions.
    Chairman Berman. The time of the gentleman has expired. I 
do want to remind everyone that there is a hearing that is 
scheduled to start at 2 o'clock by the Subcommittee on the 
Middle East and South Asia, and I will recognize the gentlelady 
from Texas, Ms. Sheila Jackson<greek-l>- deg. Lee, for 5 
minutes.
    Ms. Jackson Lee. Well, Mr. Chairman, I thank both you and 
Ileana Ros-Lehtinen for allowing members to come back and for 
completing this hearing. It is a very important hearing, and I 
want to thank the other witnesses in these absence, and those 
who were able to stay.
    I want to applaud President Obama when he took the 
constructive step of allowing Cuban-Americans to visit family 
in Cuba as often as they please. I think it was a magnificent 
step, and Mr. Peters, I think you acknowledged that is a policy 
change that is productive.
    I started my opening remarks by suggesting that I was 
engaged because of my committee assignment with the Elian 
Conzalez issue, or circumstance, and I believe there was right 
on both sides, but I think we were right to reunite this child 
at that time with his family in Cuba, but I think it is also 
important for his Miami family to be able to see and to 
interact with their family.
    I believe that my colleague articulated the tribulations 
and the challenges of African-Americans in this country. As I 
understand Mr. Delahunt's legislation, and which I have 
co<greek-l>- deg.sponsored and support, and hope that I have 
done so, and think it is an important policy change, there is 
no ban.
    We have focused on tourism, but frankly activists, human 
rights activists, individuals who wish to engage in promoting 
the collaboration with Afro-Cubans on pressing for their 
rights, all of those individuals I understand, if this was ever 
to become law, would not be banned.
    The question would be, of course, how would Cuba receive 
them? So my pointed questions go to the fact that I believe 
that we should have a quid pro quo. We are stifled in memory. 
Our policy is that we don't speak to them. We don't travel 
there.
    And frankly that was the policy of China. There are some of 
us who are still fighting the human rights abuses in China, but 
we just had the encounter of our head-of-state visiting in 
Asia, and so we are multi-tasked.
    And I think in Cuba that we should be multi-tasked, and 
that is engage, but also assess, critique, persist, and to 
those who are in this audience who have been incarcerated, know 
that we are not abandoning your pain.
    We understand the pain of incarceration and oppression. For 
those of us who watched the horror of South Africa, we know 
what it was like to see people of our, if you will, kinship be 
so treated, but look at the relationship of South Africa today.
    So, Mr. Sosa, I ask you a question about this effectively, 
if you would, but you suggest that conditioning on United 
States policy to actions taken by the Cuban Government 
effectively puts control of our foreign policy in the hands of 
Cuba.
    Just a quick question because my time is going, and a quick 
answer. Do you believe that it should be a bilateral, a multi-
tasked, approach, and eliminate the travel ban, but at the same 
time be engaged for responses or concessions by the Cuban 
Government; yes or no?
    Mr. Sosa. Eliminating the travel ban should be unilateral. 
It is an extra essential threat to the Cuban Government. The 
embargo on the other hand, and lifting that embargo, would 
require some concessions in my opinion, particularly in the 
human rights side, and I would not be in favor.
    Ms. Jackson Lee. So we should be multi-tasked. The travel 
ban should be lifted, but we should be engaging on what we 
think would be effective in a policy change as it relates to 
the embargo issue including human rights; is that correct?
    Mr. Sosa. Yes.
    Ms. Jackson Lee. Thank you. Let me speak to Ms. Antunez. 
Ms. Antunez, could we be of help? You may have heard of the 
NAACP, the Urban League, which is a national activist and civil 
rights group, that African-Americans have in essence found 
opportunities.
    You may have heard of Dr. Martin Luther King, who obviously 
has passed. Would this kind of effort and energy in helping 
Afro-Cubans be received warmly by you and our friends in Cuba, 
particularly the Afro-Cubans?
    [The following testimony was delivered through an 
interpreter.]
    Ms. Antunez. Well, if I understood your question correctly, 
yes, that would be good. I actually tried to do this on a prior 
occasion. I tried to ask for help for the people of Cuba, and 
on this occasion, I brought a letter from my brother, Antunez, 
to the Congressional Black Caucus, who had traveled to Cuba.
    I wanted to try and meet with you so that I could explain 
to you the situation in Cuba.
    Ms. Jackson Lee. Well, I think this hearing--and, Mr. 
Chairman, if I just may finish--I think this hearing is almost 
finished, and if you have a letter, I will stand by to the end 
of this hearing and receive your letter, because I think 
American influence to the end of the travel ban would be of 
assistance to all Cubans, including Afro-Cubans. I am prepared 
to engage with you.
    Chairman Berman. The time of the gentlelady has expired. 
Why don't you translate this.
    Ms. Antunez. Yes, I don't have a letter with me now. I 
brought a letter in April directed to the members of the Black 
Caucus from Cuba at a time when my people, and specifically my 
brother, were suffering, both in health and also from political 
repression. They were in very bad circumstances, and that 
letter was not received at that time.
    Ms. Jackson Lee. Well, take the help when it is offered, 
and it is offered today. Thank you very much.
    Ms. Ros-Lehtinen. Mr. Chairman.
    Chairman Berman. The chair recognizes the gentlelady, the 
ranking member.
    Ms. Ros-Lehtinen. I have heard from a lot of folks in 
wanting to lift the ban group here, and they have their 
stickers, and thank you for being here, and I also want to 
point out and say thank you to the ex-political prisoners from 
Cuba who are now residing in New Jersey for also coming over 
here. Thank you so much. It is democracy at work. Thank you.
    Chairman Berman. Just in closing the hearing, I want to 
thank the ranking member for her cooperation. This was a 
vigorous and fascinating exchange of views, and our witnesses 
were very helpful, the ones remaining and the ones who had to 
leave.
    I think it was a great example of democracy in action, and 
clashes of views and ideas, and the one thing that I think the 
entire committee shares is a desire that one day in Cuba that 
kind of peaceful clash of ideas can be expressed in the 
political system in Cuba.
    [Applause.]
    Mr. Delahunt. Mr. Chairman.
    Chairman Berman. The gentleman from Maine is recognized.
    Mr. Delahunt. I don't want to give you the last word, but 
if you would indulge me for a moment. The question has been 
asked of various individuals when they go to Cuba do they ask 
to see political prisoners.
    I want it to be noted for the record that my first trip to 
Cuba occurred in 1988, as a part of the human rights project. 
At that point in time, we asked and requested a meeting with a 
group of prisoners in combutardo del taste, and probably 
mispronouncing it, who identified themselves as los plantados.
    I have a sense that some of them are here today. Let me 
just suggest this. We did press the government after that 
visit, and I certainly am not taking credit for it, but I am 
aware that approximately 9 months to 1 year later los plantados 
were released at some time, but we don't know.
    Good things can happen if we continue to press, and I have 
been on trips with Mr. Peters. I can assure you that in every 
single occasion that we have pressed. We have met with 
dissidents. Miriam Leiva, and her husband, Oscar Espinosa 
Chepe, are friends of mine. I know the pain and anguish that 
they have suffered as well. So I say this to everyone that is 
here in the audience today, we understand.
    Ms. Jackson Lee. Mr. Chairman, would you just indulge me 
for just a moment?
    Chairman Berman. No, I get the last word.
    Ms. Jackson Lee. I want you to have the last word, and so 
would you yield for just a brief moment, Mr. Chairman, I would 
appreciate it.
    Chairman Berman. The gentlelady.
    Ms. Jackson Lee. And I will yield back, Mr. Chairman.
    Chairman Berman. Okay.
    Ms. Jackson Lee. Let me just say that I indicated to my 
dear sister, Ms. Antunez, that help is here and take advantage 
of it. Let me say, not having been present in April, let me 
convey at least the openness of all Members of Congress, 
including the Congressional Black Caucus, to the issues of 
oppressed people, and I do want to stay behind in all sincerity 
either to receive information or to be able to reach back to 
you, because if we are nothing in this country, we are people 
who fight against oppression, and we are willing to fight 
against oppression on your behalf. I yield back to you, Mr. 
Chairman.
    Chairman Berman. Thank you, and now the hearing on another 
form of oppression, and against religious freedom, is going to 
take place by the Subcommittee on Middle East and South Asia, I 
believe, and with that, thank you all, and the hearing is 
adjourned.
    [Whereupon, at 2:14 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Pence statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>McMahon statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Tanner statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Jackson Lee statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Sires statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman FTR deg.__

Material Submitted for the Record by the Honorable Howard L. Berman, a 
Representative in Congress from the State of California, and Chairman, 
                      Committee on Foreign Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Ros-Lehtinen FTR deg.__

Material Submitted for the Record by the Honorable Ileana Ros-Lehtinen, 
         a Representative in Congress from the State of Florida

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
